<html>
<title> - GENERAL SERVICES ADMINISTRATION'S FISCAL YEAR 2010 CAPITAL INVESTMENT AND LEASING PROGRAM (CILP)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                            GENERAL SERVICES
                        ADMINISTRATION'S FISCAL
                           YEAR 2010 CAPITAL
                         INVESTMENT AND LEASING
                             PROGRAM (CILP)

=======================================================================

                                (111-46)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              July 8, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
50-973                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Costa, Anthony E., Acting Commissioner, Public Buildings Service, 
  U.S. General Services Administration...........................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    39
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    40
Oberstar, Hon. James L., of Minnesota............................    43

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Costa, Anthony E.................................................    46

                       SUBMISSIONS FOR THE RECORD

Costa, Anthony E., Acting Commissioner, Public Buildings Service, 
  U.S. General Services Administration:..........................

      Responses to questions from Rep. Norton, of the District of 
        Columbia.................................................    53
      Responses to questions from Rep. Oberstar, of Minnesota....    55
Peck, Hon. Robert A., Commissioner, Public Buildings Service, 
  U.S. General Services Administration, responses to questions 
  from the Subcommittee..........................................    60

                         ADDITION TO THE RECORD

Stephan, Robert B., Chair, Interagency Security Committee and 
  Assistant Secretary for Infrastructure Protection, General 
  Services Administration, memorandum on Facility Security Level 
  Determinations for Federal Facilities..........................   103

[GRAPHIC] [TIFF OMITTED] T0973.001

[GRAPHIC] [TIFF OMITTED] T0973.002

[GRAPHIC] [TIFF OMITTED] T0973.003



 HEARING ON GENERAL SERVICES ADMINISTRATION'S FISCAL YEAR 2010 CAPITAL 
                 INVESTMENT AND LEASING PROGRAM (CILP)

                              ----------                              


                        Wednesday, July 8, 2009

                  House of Representatives,
      Subcommittee on Economic Development, Public 
                Buildings and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 3:50 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Eleanor Holmes 
Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. Welcome to today's hearing entitled "GSA 
Construction and Leasing Stimulus Spending, Energy Goals and 
Making a Down Market Work for Taxpayers on the General Services 
Administration Capital Investment and Leasing Program for 
Fiscal Year 2010.
    The fiscal year 2010 program represents an important 
variety of real estate projects that should also benefit the 
economy and taxpayers, if managed well. There are nine 
construction projects, five alteration projects and four 
leases, for a total of 18 prospectuses before the Subcommittee, 
with additional leases to come at a later date.
    The GSA Fiscal Year 2010 Capital Investment and Leasing 
Program is national in scope, including a variety of projects 
across the United States.
    The submission also includes reports known as fact sheets 
on the status of ongoing, authorized projects for the Food and 
Drug Administration at White Oak, Maryland, and site 
remediation at Lakewood, Colorado, as well as almost 50 acres 
of construction under way at Capitol Riverfront near Nationals 
Park in Washington, D.C., known as The Yard, authorized by our 
bill, the Southeast Federal Center Public-Private Development 
Act of 2000. Major projects include two alteration projects for 
the Eisenhower Executive Office Building and infrastructure 
systems replacement for the White House East and West Wings in 
Washington, D.C. The GSA fiscal year 2010 package also includes 
funds for land ports of entry at Madawaska, Maine, and El Paso, 
Texas.
    We were surprised and disappointed with the submission of 
two courthouse projects in Yuma, Arizona, and Lancaster, 
Pennsylvania. These projects were not on the 5-year plan 
submitted to this Subcommittee by the administration office of 
the United States Courts, and seem to have come from virtually 
nowhere. Even more troubling, these two small, below-prospectus 
courthouse projects, were originally leased construct projects, 
typically the most expensive way to house Federal tenants, and 
GSA had planned to go forward with these construction projects 
without notifying this Subcommittee.
    Although these projects technically fall below the 
prospectus level that requires congressional approval, GSA 
would be ill-advised to proceed on any such project in the 
future without notifying this Subcommittee, especially given 
our consistent and active oversight of the Federal courthouse 
program.
    We are working on statutory changes to restore fiscal and 
management professionalism to this very troubled and wasteful 
program. GSA is again on notice that this Subcommittee expects 
GSA to report consistently and with regularity on all--
underline "all"--aspects of its construction program. Failure 
to disclose information on construction projects going forward 
will not be tolerated.
    The administration's fiscal year 2010 budget request 
includes $100 million for the GSA to exercise its purchase 
option for the Columbia Plaza Building located at 2401 E Street 
Northwest in Washington, D.C. Because I represent this city, I 
understand that any loss of leased space, even for a single 
building, is a loss for the local tax rolls. However, the 
administration has simply adopted the consistent policy of the 
Federal Government and the Committee is in favor of ownership 
where possible, particularly considering that the vital Federal 
Building Fund depends on payments from Federal agencies 
occupying government-owned space only. This funding, in turn, 
provides the resources that enable GSA to construct, maintain 
and repair buildings in the Federal inventory.
    However, recent trends have tipped so that the government 
now leases more than it owns. The alarming shrinkage of 
available funds has severely reduced the Federal Government's 
ability to maintain its valuable inventory of buildings and 
facilities, as well as to generate funds for Federal 
construction and rehabilitation. This skewed lease-to-own ratio 
trend, which seems likely to continue, resulted in the need for 
almost $6 billion in stimulus funding for vastly overdue energy 
conservation and other repairs that have left a distressing 
portrait of the condition of Federal asset management, an 
essential government function.
    The current Federal lease on the Columbia Plaza Building 
dates back to 1992. Moreover, because of the building's 
critical location, the government does not have the alternative 
of vacating and moving on. Considering the millions of dollars 
poured into this space, that the government does not own, for 
upgrades, rehabilitation, as well as lease payments, the 
government has more than paid the equivalent cost of the 
premises by now.
    When the current lease was signed in 1992, however, GSA did 
negotiate a purchase option of $100 million, and in 2006, GSA 
appraised the Columbia Plaza Building at $190 million. The 
administration would not easily propose a lump sum $100 million 
payment for real estate today, unless, as here, there was an 
opportunity whose avoidance would be difficult to explain to 
taxpayers in light of the nearly two-to-one return on the 
initial Federal investment and the substantial return to the 
Federal Building Fund that would follow.
    Related to the fiscal year 2010 budget request is the 
American Recovery and Reinvestment Act of 2009, which became 
public law on February 17, 2009. The GSA Fiscal Year 2010 
Capital Investment and Leasing package before the Subcommittee 
today must be viewed in light of the largest single infusion of 
funding for construction, repair and alteration in many years, 
all of which was appropriated by the--was authorized, excuse 
me--by the American Recovery and Reinvestment Act.
    According to GSA's latest activity report, it has obligated 
over $10 million of this stimulus funding in the past few 
weeks. These awards include funding for Federal buildings and 
courthouses, land ports of entry and high-performance green 
building modernizations. The stimulus projects range from 
energy and water studies and land acquisitions to the design of 
energy-efficient construction projects and HVAC optimization 
and improvement projects.
    The projects are being carried out in at least a dozen 
States. GSA has--and I should add, the projects are authorized 
in all 50 States and all the territories and the District of 
Columbia.
    GSA has also indicated that it plans to award several 
larger contracts in excess of $400 million before July 31, 
2009. These projects include the Washington Herbert Hoover 
Building, phase 2 and phase 3, at $134,446,000; the Andover, 
Massachusetts, IRS Service Center, $115 million; the Austin, 
Texas U.S. courthouse, $116,041,000, and the San Antonio, 
Texas, Garcia U.S. Courthouse, $61,331.
    GSA stimulus funds must be obligated by 2010. Because of 
that date, this Subcommittee will have to find a way to pace 
the level of obligation by GSA of the funds.
    This Subcommittee has unique oversight responsibility for 
stimulus funding because the GSA funding is administered by the 
Federal Government itself, unlike other stimulus funds 
administered by the States. Therefore, the Subcommittee will 
need to decide how to measure the pace at which GSA is 
obligating the funds.
    This Committee already has begun vigorous oversight over 
the American Recovery and Reinvestment Act, GSA section. We 
held oversight hearings on stimulus spending on April 29, 2009, 
and on June 25, 2009; and we are planning another hearing for 
the end of this month.
    Today, I look forward to hearing from GSA about the 
execution of several of the projects expected to be awarded 
this summer. We thank each of you who will testify today for 
your preparation for today's hearing.
    And I am pleased to ask our Ranking Member, Mr. Diaz-
Balart, if he has any opening remarks.
    Mr. Diaz-Balart. Thank you. Let me first thank you, Madam 
Chairwoman, for holding this hearing today on GSA's Capital 
Investment and Leasing Program for Fiscal Year 2010. I thank 
you for bringing us together on this important issue.
    Last month, the General Services Administration submitted 
prospectuses for 21 projects, and that included seven 
alteration projects, ten construction projects and four lease 
projects. Now, the program includes modernization projects for 
the East and West Wings of the White House, as you stated, and 
construction of land ports of entry and courthouses.
    The program also includes the consolidation of the FBI 
operations in Miami Dade County, in the area of south Florida. 
Those district offices right now, those operations--and this 
would drive you crazy, Madam Chairwoman--they are spread out in 
12 different locations right now. So that is clearly a good 
consolidation of the FBI operations into one location, which 
obviously will be more efficient and more secure, et cetera. So 
that is obviously a good project.
    Now, while a number the proposals like the FBI 
consolidation appear to meet important space needs, I am also 
troubled by some of the projects; and you just mentioned a 
couple of those, Madam Chairwoman. I am concerned that instead 
of maximizing GSA funds to create jobs, the Recovery Act--I 
have brought this up before--made greening existing Federal 
buildings a priority by providing GSA with $4.5 billion for, 
"measures necessary to convert GSA facilities to high-
performance green buildings," which we all know is a 
meritorious thing to do. But obviously, job creation was what 
that money was supposed to be for.
    Now, despite that significant investment in greening, which 
again has merit in the stimulus, the fiscal year 2010 program 
proposes an additional $40 million for conservation measures 
and high-performance energy projects. So I am just not clear as 
to why we need an additional 40 million on top of the $4.5 
million already appropriated. That is one issue.
    The 2010 GSA program also includes various projects related 
to the New Executive Office Building, the Eisenhower Executive 
Office Building and the East and West Wings of the White House, 
as I said a little while ago.
    Now, as an example, GSA proposes the construction of a new 
structure for the Secret Service. Now, here is the rub because, 
obviously, everybody knows the essential service that they 
provide. But the cost to the taxpayer would be about $1,000 per 
square foot. That is pretty significant by any stretch of the 
imagination. So--obviously, I understand and I have the utmost 
respect for the Secret Service, and there may be some really 
good reasons why $1,000 per square foot is necessary; but I 
think this Committee needs to see that, needs to see an 
explanation for that and what other less costly alternatives 
were looked at, if they were. If they were, I would like to see 
why those were not accepted; and if they weren't, obviously, 
why not.
    I also have similar concerns with proposed costs associated 
with the renovation of the East and West Wings of the White 
House now, and I will state why. Last Congress, GSA submitted a 
prospectus for the modernization of the West Wing of the White 
House. At that time, GSA explained the high cost as including 
the infrastructure in various systems that would be shared with 
other buildings related to the White House. Obviously, we 
understand that.
    This year, GSA is proposing renovations of the East Wing. 
Now, again, I am obviously supportive of important renovations 
to the White House, given the importance of--the national 
importance of that building, the historical importance of the 
building, the fact--I mean, there are so many reasons obviously 
that I am supportive. But I am concerned that there doesn't 
seem to be a comprehensive plan for the White House complex 
renovations because we keep getting this piecemeal. So, 
obviously, I think that a comprehensive review and evaluation 
of all the capital improvement needs is warranted, and I think 
that is pretty essential because I keep seeing this piecemeal 
approach.
    Another concern, Madam Chairwoman, that I have relates to 
the two courthouses proposed in the program. I believe they are 
the ones that you were talking about. And again, there is no 
clear statement of need for these new courthouses and, in fact, 
neither of them is included in the 5-year courthouse plan.
    So, again, there are clearly some worthwhile projects 
proposed, but there are others that appear either unnecessary 
or, frankly, clearly need further explanation, which I think 
the Committee deserves to have.
    And finally, I want to express my concern about the timing 
of GSA's submission of the prospectuses to this Committee. As 
the authorizing Committee for the GSA, our actions here are 
important in informing the appropriations process. Receiving 
the Capital Investment and Leasing Programs in June provides us 
with, frankly, very little time, almost no time, to review and 
act on those prospectuses before the appropriations process 
begins, so now--in the past, this Committee has received those 
prospectuses shortly after the President's budget was released. 
I hope that that will be the case again in the future, that 
they are submitted to us to this Committee in a timely manner.
    I want to again--once again, Madam Chairwoman, I want to 
thank you for having this hearing. I want to thank the witness.
    Mr. Costa, it is always good to see you, sir. And I look 
forward to the testimony.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    Could I ask Ms. Edwards if she has any opening remarks.
    Ms. Edwards. Thank you, Madam Chairwoman.
    And again, thank you, Mr. Costa; it is good to see you 
again. I hope that you will today--I know we have been over 
this territory before, but really focus on the activities of 
the Agency to implement the green buildings and infrastructure 
program as has been authorized and appropriated in--both in 
your upcoming open lease arrangements, as well as with 
efficiency improvement, as well as with the new construction 
programs. And I am just interested in an ongoing update of how 
those programs are being implemented.
    And again, as you know--and we will discuss this now and 
forever more: my ongoing concerns about lease opportunities in 
the Maryland suburban metropolitan area, and how we are 
proceeding on that and what we might need; and your and perhaps 
even recommendations from the GSA about ways that we may need 
to strengthen the authorizing legislation that gets us to a 
goal that it seems, from the record that you submitted to us in 
the past, that we have not quite achieved in terms of parity of 
distribution of these leases and new construction activities in 
the metropolitan area. And so I look forward to our continuing 
dialogue on that.
    More importantly, I look forward to achieving some measure 
of success that we can point to more specifically.
    And, again, I thank you for being here and for the outreach 
that your Agency has made and connection with my office, 
because I do appreciate the relationship that we continue to 
develop. Thank you very much.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Ms. Edwards.
    Mr. Tony Costa, the Acting Commissioner of Public Building 
Service. We will hear your testimony at this time.

  TESTIMONY OF ANTHONY E. COSTA, ACTING COMMISSIONER, PUBLIC 
    BUILDINGS SERVICE, U.S. GENERAL SERVICES ADMINISTRATION

    Mr. Costa. Thank you. Good afternoon, Madam Chairman, 
Ranking Member Diaz-Balart, and Congresswoman Edwards. My name 
is Tony Costa, and I am the Acting Commissioner of the Public 
Buildings Service at the U.S. General Services Administration. 
Thank you for inviting me here to discuss GSA's fiscal year 
2010 Capital Investment and Leasing Program.
    GSA's Public Buildings Service is one of the largest and 
most diverse public real estate organizations in the world. Our 
inventory consists of over 8,500 assets, with almost 
354,000,000 square feet of space across all 50 States, six U.S. 
territories and the District of Columbia. Our portfolio 
includes office buildings, courthouses, land ports of entry and 
warehouses. It is the PBS mission to provide superior 
workplaces for Federal customer Agencies at an economical cost 
to the American taxpayer.
    I am pleased to be here today to request your authorization 
and support of the individual projects that make up our fiscal 
year 2010 capital program. These projects will best meet our 
customer Agencies' housing needs and have been thoroughly 
analyzed so that they are consistent with our overall portfolio 
objectives.
    We try to optimize the value of our own assets. We try to 
direct capital resources toward performing assets and develop 
workout or disposal strategies for under- and nonperforming 
assets. We have to maintain the continued functionality of our 
buildings and safeguard the health and safety of their 
occupants and provide quality work space that supports the 
varied missions of our tenants.
    We now have to achieve energy efficiency and environmental 
goals of the Energy Independence and Security Act of 2007. And, 
of course, we have to fulfill our responsibilities under the 
National Historic Preservation Act to proudly protect and 
preserve our historically significant public buildings.
    GSA is a steward of 1,500 Federal buildings which have a 
replacement value of over $40 billion. We are requesting a 
repair and alterations program of $496 million to maintain and 
improve property in our inventory. Because we have received 
significant Recovery Act funding for our buildings, our repairs 
and alterations request is slightly below that of recent years. 
But continuing to reduce our backlog is still our top priority.
    The highlights of GSA's fiscal year 2010 repair and 
alterations program include $260 million for the basic program, 
$176 million for major and limited-scope programs, $20 million 
for the fire and life safety program, $20 million for energy 
and water conversation measures, and $20 million for Federal 
high-performance green buildings.
    The Energy and High-Performance Green Buildings Programs 
are a small but crucial part of our repair and alteration 
request. Through these programs, we will make improvements 
similar to those included in our Recovery Act spending plan, 
but in a different set of buildings.
    The Energy Independence and Security Act of 2007 sets 
challenging goals. Beginning in fiscal year 2010, it requires 
GSA to reduce consumption of fossil fuel-generated energy in 
new buildings, major renovations and lease construction. And by 
2030 it requires GSA to totally eliminate fossil fuel 
consumption in our new buildings, major renovations and lease 
construction projects.
    EISA also accelerates the rate at which we must reduce 
energy consumption in our inventory as a whole to 3 percent per 
year, and specifically requires more energy and water retrofits 
in our existing buildings. We are requesting $40 million for 
the implementation of energy and water for retrofit projects in 
government-owned buildings during fiscal year 2010 to help 
achieve these goals.
    We are also requesting a Construction and Acquisition of 
Facilities Program of $658 million. Our request includes 
funding for sites, acquisition, design, infrastructure 
construction and the management inspection costs of 10 Federal 
facilities. We traditionally pursue a construction ownership 
solution for special purpose and unique facilities that are not 
readily available in the real estate market. In addition, we 
recommend new construction where there is a long-term need in a 
given locality.
    GSA's fiscal year 2010 New Construction Program is focused 
on urgent customer priorities ranging from laboratories for 
protecting the public health to land ports of entry for 
securing our borders. It includes $138 million for the Food and 
Drug consolidation at White Oak, Maryland; $100 million for the 
purchase of the Columbia Plaza Building in Washington, D.C.; 
$25 million for remediation activities at the Denver Federal 
Center and the Southeast Federal Center in Washington, D.C.; 
$190 million for a new FBI facility in Miami, Florida; $151 
million for the design and construction of three land ports of 
entry; and $53 million for two U.S. courthouses in Yuma, 
Arizona, and Lancaster, Pennsylvania. Several of these projects 
were originally planned as lease construction, but will now be 
built and owned by the Federal Government, saving the taxpayers 
millions of dollars over the long term.
    In addition to our owned inventory, GSA has entered into 
more than 8,500 private sector leases in 7,000 locations 
nationwide. At 178 million square feet, leased space comprises 
more than half of our total portfolio square footage. We are 
pleased that the vacant space in our leased inventory has been 
at or below 1.5 percent for the last 6 years, well below the 
national industry average. We strive to keep leasing costs at 
or below market levels, and have developed strategies to do so, 
including the standard use of industry benchmarks and market 
surveys to comparison shop for the best value for our 
customers.
    Due to the volume and complexity of our customers' lease 
requirements, we will submit at least one more set of lease 
prospectuses for your consideration.
    GSA continues to work with our customer Agencies to meet 
their mission requirements within their financial restraints by 
consolidating requirements, reducing unutilized space and 
minimizing tenant improvement costs in expiring space 
assignments. At the same time, we continue to work with 
stakeholders such as this Subcommittee to continue to recognize 
our capital requirements as our inventory ages and as 
customers' needs change.
    Madam Chair, Ranking Member, this concludes my prepared 
statement. I will be pleased to answer any questions that you 
or any other Members of the Subcommittee may have about our 
proposed fiscal year 2010 Capital Investment and Leasing 
Program or any other aspects of the Public Buildings Service. 
Thank you.
    Ms. Norton. Thank you very much, Mr. Costa. I have got to 
lead off with this question concerning one of your largest 
tenants and government-owned facility.
    I am into shock and dismay that the USDA, Department of 
Agriculture, apparently is delinquent in its rent, and very 
delinquent. You notice that in my opening statement--as I have 
very often in the past and as the Ranking Member has, the Full 
Committee and its Ranking Member--I have noted that we are in 
dire straits because no matter what we do, we will continue to 
lease. We are not going to start building buildings. $6 billion 
enables us to get a little way towards energy conservation and 
repair, and that is only the tip of the iceberg.
    So then, in the preparation for this hearing, I learned 
that USDA is $40 million annually behind in its rent. First, I 
want to know, how behind? How could any Agency be behind? What 
have you done to secure the taxpayers' money?
    In short, explain yourself.
    Mr. Costa. Well, Madam Chair, a number of years ago there 
was an internal, inside-the-administration agreement to reduce 
payments that the USDA would pay to GSA and, in turn, USDA 
would fund their own renovation for their headquarters 
building. That strategy never really worked. The USDA building 
still needs to be renovated.
    Ms. Norton. Did USDA, in any way, begin to meet that--their 
part of the bargain?
    Mr. Costa. The USDA did do some renovations. But the 
building still needs a major modernization.
    Ms. Norton. When was this done, sir?
    Mr. Costa. Pardon?
    Ms. Norton. When was this agreement struck?
    Mr. Costa. Over a decade ago.
    Ms. Norton. When it became clear that they had no intention 
of proceeding, what then did Public Buildings Service do?
    Mr. Costa. Over the last 5 years we have been working 
closely within the administration to ensure that the USDA----
    Ms. Norton. By doing what?
    Mr. Costa. By working with the Office of Management and 
Budget and the USDA to ensure----
    Ms. Norton. Working with whom?
    Mr. Costa. Both the Office of Management and Budget and the 
USDA to ensure that the USDA would budget full rent to the 
General Services Administration.
    Ms. Norton. What was the response?
    You have to understand that you can't expect us to continue 
to try to protect the Federal Building Fund at the same time 
that you allow one of your largest tenants to be a decade in 
arrears.
    So at any point did OMB appropriate or ask for funds? And 
then what happened to those funds?
    Mr. Costa. Well, yes, they did. We have made progress. In 
fiscal year 2009 the USDA is paying $20 million more rent than 
they paid the previous year.
    Ms. Norton. Well, you know, 20 million is up from zero.
    Mr. Costa. For a particular building. But they had been 
paying, I think the figure was over $200 million in rent to GSA 
in total.
    Ms. Norton. So I don't understand.
    They paid--they paid $20 million toward what they owed GSA; 
is that it?
    Mr. Costa. No. Basically, the USDA was paying full rent for 
all facilities except for two facilities in the Washington, 
D.C., area.
    Ms. Norton. Have they continued to do that?
    Mr. Costa. What has happened is, we basically put them on a 
plan to step up and begin to pay full rent.
    Ms. Norton. When did you put them on that plan?
    Mr. Costa. Fiscal year 2009 they are paying $20 million 
more than they had paid the previous year.
    Ms. Norton. But what had they been paying in previous 
years?
    Mr. Costa. $200 million total.
    Ms. Norton. So they had been paying $200 million?
    Mr. Costa. Yes, they had been.
    Ms. Norton. And how much in arrears are they?
    Mr. Costa. I will have to get back to you.
    Ms. Norton. So you are counting their facilities across the 
country, is that right, the 200 million?
    Mr. Costa. Yes.
    Ms. Norton. It is the facility in Washington they haven't 
been paying on?
    Mr. Costa. Yes.
    Ms. Norton. The $20 million is--represents what fraction of 
how much they should be paying, please?
    Mr. Costa. My understanding is that it is about a third of 
the total gap. And the concern was, trying to fund the full 
increase in a single budget year would harm the mission and 
program requirements of the USDA.
    Ms. Norton. Oh, not to mention your own, sir.
    Mr. Costa. That is true.
    Ms. Norton. Look, I have served inside of an 
administration. I am the first to understand what you are up 
against. What I can't understand is why, in fact--indeed, I 
would have expected you to come to the Subcommittee and ask for 
some assistance since the notion of the Federal Building Fund 
is mentioned virtually every time we have a hearing.
    Do you need assistance from this Subcommittee? I will ask 
you directly.
    Mr. Costa. Well, as we work within the administration 
developing the fiscal year 2011 budget----
    Ms. Norton. What is the 2000--what is USDA supposed to be 
doing every year from here on in, if anything?
    Mr. Costa. They should be including the full rent for the 
USDA headquarters in their overall budget request for rent to 
GSA.
    Ms. Norton. But with no responsibility for arrears?
    Mr. Costa. Actually, they had been paying in arrears up to 
their ability to move money. In fact, appropriation language 
was included in the 2008 appropriations bill to allow them to 
move money to pay us back rent. Before that time, they actually 
could not move money to pay that back rent.
    So we have made good progress. We haven't completed the 
job, but we have made good progress to both pay back rent----
    Ms. Norton. Did you inform this Subcommittee of any of 
this, of these deliberations?
    Mr. Costa. Well, periodically we have talked with staff, 
but not recently, no.
    Ms. Norton. How much is in the fiscal year 2010 for the 
Federal Building Fund payments from USDA, please?
    Mr. Costa. My understanding is that there is a step up from 
the $20 million toward full rent bill for the USDA 
headquarters.
    Ms. Norton. You know what? I was here until at least 11:00. 
They went on until, I understand, 1:00 at the Financial 
Services hearing. Mr. Serrano, because the District of Columbia 
happens also to be in there.
    By now you mean, being owed as much as you are, you don't 
know whether it made it into your appropriation, the full 
amount.
    Mr. Costa. I personally don't know that for fiscal year 
2010. We can certainly find out.
    Ms. Norton. Will somebody go out right now and call to find 
out whether or not, somebody in this room from GSA and find out 
what is in the 2010 budget that was passed last night.
    Mr. Costa. We can do that.
    Ms. Norton. We need to know that.
    You know, I am on--I Chair the Subcommittee. Financial 
Services Committee is one with which I am closely in touch. 
This is the first I have heard of that, so I have never had an 
opportunity to weigh in on this. Meanwhile, here I am kicking 
and screaming about the Federal Building Fund. We said that you 
needed to keep us in touch with your construction program, even 
more so on the Federal Building Fund.
    Could I ask you, are there any other tenants who are 
delinquent in government-owned space? And what are those 
tenants?
    Mr. Costa. No, not delinquent. There are a limited number 
of Agencies where rent waivers were requested and approved. And 
I actually think that we report back to you, to your 
Subcommittee, at least on an annual----
    Ms. Norton. Did we approve this rent waiver?
    Mr. Costa. No, not the USDA.
    Ms. Norton. Well, how did it occur?
    Mr. Costa. Through administrative means.
    But you asked whether--we actually have--you did ask us to 
do some drafting assistance, which we have provided to you to 
deal with the USDA rent issue.
    Ms. Norton. Well, when there is an exchange of letters of 
that kind, this really falls in the category of inform the 
Committee so it can do what it can do. I am very distressed to 
hear that, especially since we don't know of any way to make up 
for what is happening to the Federal Building Fund.
    Before I go on to further questions, I am going to go to 
our Ranking Member. I have used up more than my time on this 
one question, so disturbed was I to learn that there was this 
huge delinquent Agency, that I think I ought to pass now to our 
Ranking Member and then to Ms. Edwards.
    Mr. Diaz-Balart. Thank you, Madam Chairman. But I never 
complain about the Chairwoman taking too much time, so don't 
worry about that.
    Actually, I want to talk about some of the issues I brought 
up in my statement, and that includes the White House complex 
and the Executive Office Building. It appears that as the work 
starts, we have already approved projects, yet more projects 
are identified.
    So, has GSA required, thought about requiring a master plan 
for the White House complex if there is a more orderly 
assessment of all the work that is needed?
    Mr. Costa. There are a number of organizations that are 
responsible for facilities on the White House complex--National 
Park Service, GSA, White House Military Office.
    A number of years ago there was a master planning effort 
that went on, but I don't think that that came to a conclusion, 
especially as it relates to a capital plan which is, 
essentially, I think, what we are talking about.
    What has happened over the last few years, we have had a 
lot of success, with the Subcommittee's support, both to 
authorize and help support funding for the renovation of the 
Eisenhower Executive Office Building, which needed repair 
pretty desperately. As we worked on that building, frankly, 
like any other renovation, we found things, additional things, 
wrong on the complex that were associated with the Eisenhower 
Executive Office Building. And that is, frankly, where our 
discussion started with repairs to both the West Wing and the 
East Wing infrastructure issues.
    It all started when we looked at the Eisenhower Executive 
Office Building and how it served those portions of the White 
House complex. And we discovered, frankly, pretty dramatic 
problems which have led over the last 3 years to our--a number 
of requests from the General Services Administration to do work 
for both the West Wing and the East Wing.
    Mr. Diaz-Balart. But that would not--wouldn't that actually 
then make the case for a new master plan even more logical?
    Mr. Costa. I think it is a great idea, and we will go back 
to our customers and the organizations we work with on the 
complex to make that happen.
    Mr. Diaz-Balart. Because it just seems that, again, the 
more I hear about it, the more sense it makes. And I guess you 
agree with that.
    Mr. Costa. Definitely.
    Mr. Diaz-Balart. Now, for example, last year this Committee 
approved a prospectus for the West Wing of the White House, and 
I believe that we were told that part of the cost--the reason 
that the cost was so high was because of, you know, shared 
infrastructure. Now, however, the improvements on the East Wing 
seem to be just as costly.
    Why, if the cost before was associated with the sharing of 
the infrastructure--and I guess those costs are no longer 
there--why is this now almost the same price or about the same 
type of cost?
    Mr. Costa. What we didn't know when we proposed the West 
Wing infrastructure improvements, we understood pretty clearly 
the connection between the Eisenhower Executive Office Building 
and the West Wing. After we proposed the project, we began a 
pretty extensive study to look at the East Wing and realized 
the conditions in the East Wing were just as bad.
    Unfortunately, it is almost impossible to do preventive 
maintenance on a complex like the White House. It obviously 
runs 24/7, and no one allows us to shut down the power for a 
weekend. And so, frankly, that hadn't happened.
    Mr. Diaz-Balart. Am I wrong when I say that part of what we 
were told last year about the cost was the shared 
infrastructure? If that was not the case and then I never heard 
back saying that that was not the case, am I wrong when I say 
that we were basically told that that part of the high cost was 
because of the shared infrastructure?
    It would seem to me that we don't have the same issue. I 
mean, we have other issues, but do we have the same issue now 
also with the shared infrastructure with the East Wing as well?
    Mr. Costa. I think--and I am sorry it has taken me so long 
to get to that issue.
    Initially, the shared infrastructure was between the 
Eisenhower Executive Office Building and the West Wing. Now 
that we have learned that the East Wing is in as bad shape, we 
need to do the same kind of repair work.
    And we are also creating a pathway between--from the East 
Wing to the West Wing to ensure that we can do repairs in both 
wings. And so there will be redundancy not only with the EOB, 
but with the West Wing and across the East Wing, so there is 
even more redundancy.
    It is a very complex project, and we would love to offer a 
detailed briefing and, frankly, a tour because the complexities 
of the project really are just amazing. It is a very expensive 
project.
    Ms. Norton. With the indulgence of the Ranking Member, they 
are playing games on the floor to such a degree I thought that 
perhaps we could get a question or two in for Ms. Edwards or 
Mr. Perriello because we may be over by the time they finish if 
they still have votes and so forth.
    Go ahead, Ms. Edwards.
    Ms. Edwards. Thank you very much, Madam Chairwoman. I have 
a number of questions, but I just want to focus really 
quickly--and it is a bit of a tangential issue from where we 
are today.
    But there have been several critiques, including my own, 
and other Members of the Committee about how the Agency 
determines where Federal leases should be located. And so I 
want you to just outline for me and articulate the process that 
happens on a staff level after you receive the requirements 
from an Agency--what they are looking for in a project and what 
is the role of the staff in taking the recommendations, 
applying them to a specific project, and then making the lease.
    And does the Agency then--is the Agency then able to revoke 
it or go back on their decision and ask for new requirements 
once the staff have actually made a determination according to 
the--a first set of requirements set before them?
    And then, lastly, how much of a consideration is it to 
consider mass transit in a determination of leasing or building 
facilities or where the employees are residing? And if that is 
not in law, it is not codified, is there a need to codify it if 
we make a conclusion that the regulatory--the regulations 
process isn't working for applying those kinds of criteria?
    Mr. Costa. Essentially, we first rely on a customer agency 
to define their requirements, including locality requirements. 
But the General Services Administration ultimately has the 
responsibility to decide on a delineated area. In the past, we 
didn't do a good enough job, frankly, of working with 
customers, applying our ability to ask customers detailed 
questions about their requirements that would then conclude 
with their requirement piece of this.
    But also from the standpoint of the market, we need to do a 
better job of aggressively pushing for maximum competition, the 
broadest competitive area that we can. We have been doing a 
better job in the last couple of years and, frankly, much of it 
has come from direction from the Subcommittee. In the past, we 
had had problems with changing delineated areas after 
authorization for projects. We no longer have that problem, 
both from the standpoint of your direction, the Subcommittee 
direction, to come back and notify when there is a proposed 
delineated area; but also we have revamped our internal 
business procedures, so there is not the flexibility that there 
used to be, both in requirements in general and in delineated 
areas.
    So we have made a pretty dramatic turn over the last couple 
of years to, again, put a fair amount of structure in those 
deliberations. And staff doesn't really have the ability, 
unless there is some specific mission requirement, to adjust 
those requirements, and certainly not in mid-procurement.
    There are times when mission needs do change during the 
procurement process. But none of us like to get into that kind 
of situation because it is--frankly, it isn't fair to the 
market for the government to change requirements unless there 
is some real need for it.
    We had a great meeting in March, talking about this issue. 
We have been issuing new leasing guidance. A year ago we 
introduced what we called our green leasing clauses. We are 
issuing new clauses this fall to require ENERGY STAR buildings. 
What we have talked about, and I think it is a terrific idea, 
is to start to add some structure around the issue of 
sustainability, commuting patterns to locational decisions.
    Now, our current regulations suggest that we need to 
include those things, but I don't think we have done a good 
enough job of actually both giving direction to Agencies as to 
how to consider those things. We just say, you are required to 
do it. We are going to provide a deeper structure and analytic 
approach to that so that we can do a much better job for the 
Federal Government, taxpayers and localities to explain how we 
are concluding a locational decision.
    Ms. Edwards. Is there a role for this Subcommittee, for 
this Committee, to address some of these questions and give 
perhaps more guidance with your suggestions in that area so 
that you can actually better apply what your goals are?
    Mr. Costa. I think it would be great to have that kind of 
discussion. I think it is our obligation to put forth a 
framework to you all to consider.
    Ms. Edwards. Madam Chairwoman, I will conclude here, but I 
look forward to working with you to make sure that that, in 
fact, happens. Thank you.
    Ms. Norton. Thank you very much Ms. Edwards.
    Mr. Perriello?
    I want to say before Ms. Edwards leaves, that she ran down 
a list taken right out of GSA's playbook where an egregious 
amendment was added to a prospectus that undermined the very 
prospectus language that we required, that there would be no 
change in the procurement or the solicitation area. It was a 
shocking--it was so shocking, and it came to our attention only 
because the developer brought it to our attention.
    I simply must ask you, with her present, since what 
resulted is that you had to cancel, as I understand it, that 
amendment which said that the facility had to be near the 
existing, also-rented facility; that it be near churches, in 
violation of church and state; hardware stores; as I recall, 
hairdressers. It was a clear setup to make sure that this 
facility did not go in Prince George's County, and that the new 
facility would remain in Montgomery County.
    There was no way to avoid that implication. It bordered on 
corruption, frankly, but it had a lot to do with simply doing 
whatever the Agency said.
    So let me ask you, what is the status of that project? Has 
that project been awarded? And if so, where and when? It is an 
HHS project, I believe.
    Mr. Costa. No. I do not think that the HHS lease has been 
awarded. I am certain it has not been awarded.
    Ms. Norton. Do you intend to award a lease? It was 
obviously something that needed to be done because you had gone 
pretty far.
    Mr. Costa. We do intend to award a lease. But as recently 
as this week, talking with our colleagues in the National 
Capital Region, we did talk briefly about the HHS lease, and it 
has not been awarded.
    I can provide you more details on the schedule for that 
award.
    Ms. Norton. Within 30 days, please.
    Mr. Costa. Yes, ma'am.
    Ms. Norton. Thank you very much.
    Ms. Edwards. Madam Chairwoman, I would just say--one, thank 
you for raising that question. That does go to the heart of the 
questions that I raised, and it is that, you know, once those 
requirements are set down and GSA goes through the process of 
implementing that, it does raise a question when the process 
seems to be aborted or deflected based on a whole set of new 
requirements that were not in place at first when GSA was 
looking at the project.
    And so that is--I mean, my question is, how do we move 
forward in enabling GSA to move forward in implementing Agency 
requirements without interference and in a process that 
involves a little bit of fairness and equity to all 
jurisdictions, so that people just understand what the rules 
are, what the process is, and that there is a sense that there 
was a bit of evenhandedness and even arm's-length distance in 
that implementation and negotiation without interference once 
the requirements are set down.
    And so I thank you, Madam Chairwoman, again, for raising 
this question.
    Ms. Norton. Thank you, Ms. Edwards.
    So can you assure this Subcommittee that the prospectuses 
that we approve today will abide by the 2007 language, language 
which obviously, in light of the violation, needs to be 
strengthened; and that the solicitation area and that the 
procurement area will be identical and not solicitation area 
and then you procure in some subset of that area?
    Mr. Costa. Yes.
    Ms. Norton. Thank you, sir.
    Mr. Costa. With no uncertainty.
    Ms. Norton. Now, I understand that--before I put to sleep 
the USDA, that 2 months ago, the staff asked for language for 
the appropriation report which, I assure you, I could have 
tried very diligently to get.
    Why is that language regarding--why did that language 
regarding USDA not come forward?
    Mr. Costa. My understanding is that we had provided that. 
If we hadn't, then it is my mistake to suggest that we had.
    Ms. Norton. You are the Acting Commissioner, and that is 
something as important as providing language for your own 
appropriation, for delinquent rent that goes back to--10 years, 
nobody keeps track of whether or not it has even been 
submitted?
    Mr. Costa. I hope that is not the case, but if it is, I do 
take full responsibility for it.
    Ms. Norton. Did it clear OMB? Do you have to go to OMB to 
get your own back then?
    Mr. Costa. No. When we get a request from staff to help 
with drafting language, we do not have to go through the Office 
of Management and Budget.
    Ms. Norton. We just ask that you at least give us a little 
help. We can be helpful.
    Mr. Costa. I understand fully.
    Ms. Norton. But it leaves a very bad taste in our mouth 
when we are not even informed of how to be helpful.
    Let me ask you about the high-performance green buildings. 
The President of the United States was real clear that in the 
infrastructure money, he wanted the emphasis on high-
performance green buildings and other green projects. And 
because the GSA project is under his direct supervision, 
through you, this was particularly important for GSA.
    I indicated that, unlike virtually every other project, 
this one is going to be traceable right back to us; therefore, 
the oversight is very important. So we have already passed the 
climate bill. Shows you the kind of--energy bill, rather. Shows 
you the kind of priority we have given this.
    Then we learned, or at least I did in preparation for this 
hearing, that this new office we authorized, I suppose in the 
first energy bill, the Office of High Performance Green 
Building, has yet to have a permanent director. I know this 
issue goes back to at least April, at a Full Committee 
oversight hearing; and we were assured, and the language, as I 
recall, it was full speed ahead to get a director.
    Why is there no director? Or perhaps there is and we just 
haven't heard about it.
    Mr. Costa. Well, we have an acting director, and he is 
sitting behind me to my right, Kevin Kampschroer, who is doing 
a terrific job.
    Ms. Norton. Why is there no permanent director full speed 
ahead.
    Mr. Costa. Essentially, what it comes down to is we don't 
have a permanent administrator. And there are----
    Ms. Norton. What does that have to do with it? You are 
waiting for her to appoint the person, but you have somebody to 
recommend to her?
    Mr. Costa. Well, the process is already started. We 
recruited for the job. We did interviews. I am sorry, we are 
scheduling interviews. And we will be ready for a new 
administrator to make a recommendation so that----
    Ms. Norton. As soon as she is confirmed?
    Mr. Costa. Probably about 3 weeks. Well, we are waiting for 
her to be confirmed.
    Ms. Norton. I want to know if there is going to be--
somebody has got to recommend to her. She is not going to start 
from scratch. We are now well into the process, green building 
process.
    Mr. Costa. Yes.
    Ms. Norton. I am concerned that you are having to rely I am 
sure on competent personnel, but not on the specialized 
personnel authorized by our bill. Therefore, I need to know 
whether or not when she is confirmed she can be presented with 
your list of candidates or not.
    Mr. Costa. She will be. As a matter of fact, she won't even 
have a list of candidates, she will have a recommendation for 
an individual candidate. And based on our schedule of 
interviews, that will occur by the end of July, which is what 
we have been telling folks publicly.
    Ms. Norton. The end of July?
    Mr. Costa. Yes.
    Ms. Norton. Oh, that would be, assuming we get through the 
confirmation process.
    Mr. Costa. Yes.
    Ms. Norton. That is just so important that there be 
somebody with that specialized experience. There are all sorts 
of people who know how to do all kinds of things, but we are 
looking for a highly qualified person in this specialty, which 
is what it is today. I am sure I indicated in my opening 
statement that you know, we are funding projects in all 50 
States. That is how you do a stimulus project, a stimulus 
funding, because everybody is going to be looking. That is not 
how we do project selection generally. So I wish you would tell 
the Subcommittee how the agency prioritizes projects. How do 
you decide, particularly given the poor state of the Federal 
inventory, that one project gets funded and another does not?
    Mr. Costa. Well, essentially we rely on four or five 
factors. The first factor is really customer urgency, the 
mission occurring in the building.
    Ms. Norton. Now, customer urgency means what, the roof is 
leaking and people are complaining?
    Mr. Costa. Essentially, things that are either harming 
productivity of our customers in a building----
    Ms. Norton. Give us an example of what those things are.
    Mr. Costa. Failing roofs, air conditioning that doesn't 
work, heat that doesn't work. Things like that. We also rely on 
customer priorities. So when we are choosing, for instance, 
courthouses, we rely on the Court's 5-year plan.
    Ms. Norton. In that regard, how did Yuma, Arizona, and 
Lancaster, Pennsylvania, not on the full list, get included in 
the request for 2010?
    Mr. Costa. The Court's 5-year plan is a 5-year construction 
plan. Both Yuma and Lancaster were projects that had been 
blessed by the Judicial Council--or the Judicial Conference, I 
am sorry, but were deemed to be lease construction projects. 
When we continued to evaluate the market and----
    Ms. Norton. Go ahead.
    Mr. Costa. Actually, both Yuma and Lancaster were small 
enough projects they would not have required a prospectus.
    Ms. Norton. No, no, we understand that.
    Mr. Costa. But both were going to be lease construction.
    Ms. Norton. Why? Why do lease construction, an expensive 
way to----
    Mr. Costa. Because of funding constraints we do lots of 
leasing that in the end----
    Ms. Norton. Courthouses? When is the last time you did 
lease construct courthouses?
    Mr. Costa. In the last 20 years we have probably done 15 to 
20 lease construction for courthouses.
    Ms. Norton. If that were the case, we wouldn't be turning 
down so many people to come to us for courthouses. We tell them 
it has got to be in the President's budget, it has got to be 
approved in the 5-year plan. We are being besieged all the 
time. I don't know what I am to tell people now. Has it been 
funded?
    Mr. Costa. The prior 15 to 20?
    Ms. Norton. No, this one, these two courthouses.
    Mr. Costa. No, that is what we are requesting this year, or 
for fiscal year 2010.
    Ms. Norton. Well, just a moment. Somebody really does need 
to look. Has anybody found out the answer to my first question? 
Somebody really better look at that 2010 appropriation, because 
it has been done. God, I am like way on right when it comes to 
my appropriation to see what really got funded. That is all I 
want to know. Did this Subcommittee--I am sorry, Full Committee 
fund this lease construct two courthouses in its appropriation?
    Mr. Costa. For Yuma and Lancaster?
    Ms. Norton. Excuse me? For both of them. Or either of them.
    Mr. Costa. Those projects were both meeting requirements of 
the courts, and we were in the beginning stages for Lancaster 
and had begun a procurement in Yuma, Arizona. When we looked at 
the market and where we thought the--and the rent rate that we 
knew that those projects would require, we decided it made more 
sense, in light of Subcommittee direction and GAO guidance, to 
change direction and propose the construction of those 
courthouses because of the cost.
    Ms. Norton. So there is no money in the appropriations for 
these courthouses but you are going to do them anyway? Make me 
understand.
    Mr. Costa. No. When we proposed these projects as lease 
construction projects, frankly the only money that was required 
is for the courts to get money to pay us rent. So from that 
perspective, all that was required was for the courts to budget 
for rent. When we started to approach the market in Yuma and 
started to look at the market in Lancaster, it was pretty clear 
to us that the rent rates associated with these lease 
constructed courthouses would be extremely high and didn't make 
sense for taxpayers, so we did change direction.
    Ms. Norton. So they will not be constructed.
    Mr. Costa. We are requesting funding in 2010 to do 
construction of these two courthouses.
    Ms. Norton. The appropriation passed last night. Have they 
been funded?
    Mr. Costa. I have a card with neither were funded.
    Ms. Norton. So your testimony is that these two projects 
will not proceed because they have not been funded. Is that 
correct?
    Mr. Costa. Based on House action, no.
    Ms. Norton. Does that mean you will seek the funds in the 
Senate?
    Mr. Costa. That is the part of the President's request, 
yes.
    Ms. Norton. All right. Let's see if they fall for it.
    Now, there is $60 million for energy and water retrofit. 
They are high performance green projects, fire protection 
projects. That is in your ongoing budget for 2010. How does 
that fit, particularly since these are energy projects as well, 
how does that fit with the stimulus? What is the connection, if 
any, with your stimulus funding?
    Mr. Costa. The basic connection is that there are two 
requests, one for 20 and one for 20, adding up to 40. The first 
$20 million for--really are for the same kinds of things we are 
funding through Recovery money. It is just a different set of 
buildings. We had not been able to do----
    Ms. Norton. These are ongoing needs that you would be 
funded anyway?
    Mr. Costa. We had requested and received funding for the 
last number of years for this type of work. And so it is the 
same kind of thing, lighting, repairs to HVAC systems, things 
like that, but in a different set of buildings than we had been 
able to do work in through Recovery funding.
    The second request for $20 million is actually to look at 
buildings that are either in the final stages of design or 
actually, where we have begun construction, to look at 
alternative energy sourcing that we had not proposed in the 
design of those projects. For instance, there is a land port of 
entry in Alexandria Bay where we are looking at geothermal 
applications that we had not proposed in the project.
    Ms. Norton. Why would you have--I thought when we build 
anything today, given what we now know about payback, we would 
always seek to get that no matter what we build.
    Mr. Costa. That is what we have done. But because of the 
economics and the payback, we are much more aggressive about 
adding that kind of work, and that is what that second $20 
million will allow us to do.
    Ms. Norton. Can you assure us that we will not build afresh 
and anew unless there is a significant energy component in the 
future whatever we do?
    Mr. Costa. I can assure you of that. We are changing our 
standards to ensure that--our basic standards to ensure that 
happens for all projects.
    Ms. Norton. Mr. Cao, before I proceed further I should ask 
you if you have any questions or any statement you would like 
to make.
    Mr. Cao. Thank you, Madam Chair. I just have a very quick 
question. Based on what I have read here, you have received 
$5.5 billion for construction in authorized projects in the 
stimulus bill. Is that correct?
    Mr. Costa. Yes, sir.
    Mr. Cao. How much of that money has been obligated?
    Mr. Costa. $320 million. By the end of July, we will have 
obligated $1 billion. By the end of the calendar year, we will 
have obligated $2 billion. By the end of March, our total 
obligation will be $4 billion.
    Mr. Cao. Okay. So as of this point the percentage of 
obligated funds would be approximately----
    Mr. Costa. 320 divided by 5.5 billion, 7 or 8 percent.
    Mr. Cao. 7 or 8 percent?
    Mr. Costa. Yeah.
    Mr. Cao. Okay. Why such a slow process or pace?
    Mr. Costa. We feel like the pace is pretty quick. We just 
submitted a list of projects in March. And so what we have 
tried to do is take advantage of projects that were phase 
projects and fund future phases now. And that is the bulk of 
the work that is going on at this point. We are using 
accelerated contracting methods. This pace of obligation is 
beyond anything we have done before. And I know that it might 
seem slow, but I can assure you it is well beyond anything we 
have done in the past.
    Mr. Cao. Okay. The 2010 program this year was submitted in 
June, which gave us little or no time to review the proposed 
projects prior to the appropriations cycle. Why was the program 
submitted so late? And do you commit to an earlier submission 
next year?
    Mr. Costa. I can commit to that. I think this year was 
difficult because congressional action didn't occur on our 2009 
budget until well into the budget year. And with the Recovery 
Act, we had to submit a fairly extensive list of projects. So 
we had to both see what Congress would end up enacting in 2009, 
put together a pretty significant project list for recovery, 
and produce a fiscal year 2010 project list. So it was a little 
bit of a perfect storm when it comes to project planning. I can 
assure you that we will do better next year. We have to do 
better next year, because we do understand that a June 
submission does not give you enough time.
    Mr. Cao. And of the $5.5 billion that you received under 
the stimulus bill, how much of that was or would go to 
Louisiana and how much would go to the Second Congressional 
District?
    Mr. Costa. I will have to follow up with that specific 
information.
    Mr. Cao. Okay. That is all the questions I have, Madam 
Chair. Thank you very much.
    Ms. Norton. Thank you, Mr. Cao. I took note in my opening 
statement of the President's decision to purchase the Columbia 
Plaza Building. As you know, regardless of whether it is 
purchasing or leasing or construction, it has long been my view 
that a down economy is the GSA economy. And I would like to 
know if there are any other such opportunities, whether in 
purchase, leasing, construction, that you could use to the 
advantage of the taxpayers.
    Mr. Costa. Madam Chair, you have been very vocal about our 
ability and our initiative related to the market. And it makes 
perfect sense. We are looking at every major lease across the 
country, looking at terms in the leases to understand better 
where we might have the ability to extend those leases and take 
advantage of market conditions to extend those leases at better 
rates. We are also looking at the possibility of another 
building acquisition program, which we haven't had for a 
decade. And we are looking at those possibilities for fiscal 
year 2011. So we are doing both things, and we think they make 
very good sense.
    Ms. Norton. So in light of our request in our recent letter 
for a 45-day response on early leasing and lease holdovers, 
where are you? What is the status of that, please?
    Mr. Costa. Well, we are in the middle of that process, and 
we owe you a response by July 27th.
    Ms. Norton. And you will be on time?
    Mr. Costa. We will be on time.
    Ms. Norton. I hate to think of this economy as something 
that we want to quick, hurry, take advantage of, because we 
don't want it to linger. It is bad for everybody I can think of 
except a big developer and real estate operator like the GSA. 
Now, I recognize the President probably doesn't have $100 
million to throw around on lots of buildings. That is why we 
sent our correspondence to you on early leasing and the 
holdovers. The notion of going to an owner now seems to me to 
put you in the position of an offer he can't refuse. He doesn't 
want holdover status. And when he sees you are into early 
leasing, he may get an offer he cannot possibly refuse. He 
doesn't want to lose you. He doesn't want to be in holdover. 
And we would be dismayed if at least for that, because again 
$100 million opportunities may not be what the budget will 
allow. But this is ongoing business of the agency. That, it 
seems to me, has to be scrutinized very, very carefully to see 
what is appropriate and what is not. We are not implying that 
it is always appropriate. We think it is always appropriate, 
bad or good economy, to try to do some leasing that you think 
you are going to need as early as possible. We also are aware 
of what we regard as almost criminally reduced staffing so that 
you have had to borrow people even to do the stimulus 
correctly. We understand that. But there are some things worth 
bringing in people to help you do. And taking advantage of this 
market I would place high on the list.
    I am very pleased that you are going to have that report 
back to us on time. Now, would you describe what 412 authority 
is and why the agency has not used this authority? Describe 412 
authority as you understand it as authorized and approved by 
this Committee and the appropriators.
    Mr. Costa. Section 412 is a section of an appropriation 
bill, I think 2005 if memory serves me. One thing it provided, 
which is fairly straightforward, is the ability for the General 
Services Administration to retain proceeds of property that we 
dispose of. And we have taken advantage of that to the tune of 
about $200 million over the last few years. But in addition----
    Ms. Norton. What was that in relation to, please?
    Mr. Costa. Excuse me?
    Ms. Norton. You said you had taken advantage of it.
    Mr. Costa. Just from the standpoint of when we dispose of 
properties. Prior to 2005, those proceeds went into the 
Treasury.
    Ms. Norton. Now, have any of those--any disposals where 
funds have gone to the Federal Building Fund?
    Mr. Costa. Yes, they have, $200 million.
    Ms. Norton. And what were those? What were those?
    Mr. Costa. Just the disposal, our normal disposal kinds 
of----
    Ms. Norton. Would you get the Subcommittee a list of those 
disposals?
    Mr. Costa. Sure. I can do that.
    Ms. Norton. Thank you.
    Mr. Costa. But in addition to the retention of proceeds, 
the language contained in section 412 we think arguably gives 
us more authority than we had prior to 2005.
    Ms. Norton. Arguably? Is there an argument on the other 
side that the Subcommittee and the Appropriations Committee 
should be aware of? In other words, you think you already had 
this authority?
    Mr. Costa. No, we think section 412 gave us additional 
authority, and we appreciate it. And there are no arguments on 
the Subcommittee's end as to what authorities those are. Within 
the Federal Government there had been and continue to be 
discussions about what that authority looks like. These are 
ongoing discussions, though. And we are looking at a couple of 
specific proposals----
    Ms. Norton. I have got to understand. Because if the 
Subcommittee and the Appropriations Committee could clarify 
what we are talking about, that is why I asked you to describe 
your understanding of 412 authority. Because the failure to use 
it suggests that there is some lack of clarity that the 
Subcommittee and the Appropriations Committee needs to rectify.
    Mr. Costa. Well, the clarity that would be most useful, 
because many of the arguments are associated with budget 
scorekeeping, not with the authority.
    Ms. Norton. Say that again.
    Mr. Costa. Budget scorekeeping. Frankly, the same issue 
that we are dealing with across the board. Section 412 provides 
authorities, but using those authorities, they are scored. And 
it mostly has to do with who is accepting the risk of these 
real estate transactions. And so as we proposed----
    Ms. Norton. So OMB's reason for refusing to allow you to 
use this authority is that it scores, although the 
appropriators and the authorizers thought it did not? Have we 
gone to CBO?
    Mr. Costa. We have not. But one avenue might be to propose 
specific transactions and do that kind of scoring analysis.
    Ms. Norton. In other words, sometimes it scores and 
sometimes it doesn't? I mean if CBO had a different view, it 
would be important to know that.
    Mr. Costa. I think that makes perfect sense to talk with 
CBO.
    Ms. Norton. Yeah, I know they are reluctant to give, quote, 
advisory, forgive my legalese here, opinions, but when you 
consider that we were trying to avoid a scoring problem that 
has kept the government from in fact doing what is in its own 
best interests, the notion that OMB says it scores, end of 
argument, you know, next time you see OMB tell them this for 
us. The people who just informed President Obama a couple of 
weeks ago that his health care bill only covered 16 million of 
at least 50 million people who would need to be covered are in 
no position to offer a final opinion on what scores. There is 
only one authority on scoring, and all branches, all three 
branches agree that the final authority rests with CBO. So I 
think at the very least we should be trying it. And if we are 
pushed back by CBO, we will understand. But it is the failure 
to use it, especially if it is because OMB says so. You know, 
for OMB to throw up, even if they had a record, scoring would 
still be to deal with a nonobjective source. So we are very 
concerned that after going through a whole lot to get 
appropriators to understand what we meant and in order to get 
it done, we have been stuck on stupid, it looks like, in two 
administrations.
    Are you telling me that the Obama OMB is saying the same 
thing that the Bush OMB said with respect to scoring?
    Mr. Costa. Up to this point we have not had direct and 
comprehensive discussions with OMB leadership about budget 
scorekeeping of real estate.
    Ms. Norton. Now, I am going to ask you to do this within 30 
days and report back to this Committee. You will be 
handicapped, as I pose this question to you, by the fact that 
OMB is handicapped by having almost no staff that understands 
real estate. Remember we had to overcome the notion that the 
Old Post Office scored even though it was replicated on the 
Tariff Building. And they told you all it scored. So, you know, 
OMB has no credibility on the scoring matter with us. But your 
testimony indicates that you have not gone before this OMB to 
say, look, we have this authority, I am going to have to go 
before the authorizing Committee. They felt strongly about it, 
so strongly that they were able to get the authorizers. And 
this is how it saves the government money. You have to take 
them to dumb school. You have got to say, okay, follow me.
    Is it your view that it would in fact be to the benefit of 
the government in cost savings or any other respect to in fact 
use 412 authority? Is that your view or not?
    Mr. Costa. I think we start----
    Ms. Norton. If it did not score.
    Mr. Costa. We will begin to have that opportunity with OMB 
leadership starting tomorrow, because we have a Federal Real 
Property Council leadership meeting.
    Ms. Norton. Who is that?
    Mr. Costa. It is an executive branch, basically, committee 
of Federal real property holders.
    Ms. Norton. How come these things don't score for the VA, 
don't score for DOD, don't score for DOE, but everything scores 
for GSA?
    Mr. Costa. To some extent it has been unclear to us why 
that is the case.
    Ms. Norton. You have got to put that to OMB. GSA has got to 
get somebody who knows how to advocate for the agency. I 
believe that this administration is trying to bring some fresh 
eyes to all of this, and I will do my best to help. But you are 
all the people with the grounded expertise. And the notion of 
going to this OMB and saying this is how we can save some 
money, let's try a project and see what CBO says, what is there 
to lose? Even if there were let's say a pilot project.
    Mr. Costa. We agree, and I will start that discussion 
tomorrow.
    Ms. Norton. Oh, I so appreciate that. Would you let us know 
in 30 days how that is coming? I understand internal 
discussions, but we could be having discussions, too. For 
example, our staff director, Susan Brita, had to take--it was 
CBO, wasn't it? Now, you know, we do depend upon CBO to be 
objective. But she had to take CBO to the cleaners, keep them 
there for a long time before she was able to convince them that 
the Old Post Office did not score. It was very, very troubling. 
So I guess we should say that real estate is not of much 
concern at CBO either. But we can avoid the fact that similar 
projects in other agencies do not get scored.
    What is the status, since I mentioned the name, of the Old 
Post Office project?
    Mr. Costa. We are about to host an Urban Land Institute 
forum to talk to the private sector about the current capital 
markets and the ability to finance a project for the Old Post 
Office so that can help----
    Ms. Norton. See, that is what we lost from--here, we needed 
to take a bill through the House and the Senate to do something 
that you did administratively with the Tariff Building. Not 
your fault. OMB made you do it again or made you not do it. So 
we had that terrific market, and now you have got to find 
somebody who can go to the capital markets and get the money to 
renovate that building there, which is going to be harder than 
it would have been had you been able to proceed 
administratively as you had intended.
    When you are sitting at this real estate forum that you 
mentioned, you have got to make OMB understand that you are one 
of them, not an agency like other agencies over here. You are 
classified as far as OMB. And it looks as if even CBO will 
classify you as an agency that is not in the market the way 
most agencies are not. You are in the market. You are a big 
player in the market. And they have you playing by rules that 
nobody in the market worldwide plays by, because nobody over 
there understands that you are not just another Federal agency. 
You are like the VA, you are like the DOD. None of those 
agencies are held to that standard. There is no excuse. The 
only excuse is OMB has not had--I am sorry, GSA has never had 
the leadership that--because this has happened through 
Democratic and Republican administrations--who could take the 
case and keep pressing the case, in writing if necessary, 
showing them exactly how you save money so that at least when 
handed the authorities--was it 4 years ago--you could come back 
and say, well, CBO now says it. So we find it entirely 
unsatisfactory that we are keeping to ask this. And if you tell 
me you are going to bring it up tomorrow, you should explain to 
them the insistence of this Subcommittee and this Full 
Committee that GSA be treated as similar agencies engaged in 
the real estate market.
    And I am going to ask my Ranking Member if he has 
additional questions. He was kind enough to yield to the other 
Members.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. I think this 
was a very good discussion you were just having. I was voting, 
but I understand again that you talked about the building 
purchase program that you are going to be--I apologize, I 
wasn't here for that. I am going to ask you to repeat what you 
talked about that.
    Mr. Costa. Madam Chair suggested that GSA should take 
advantage of the market both from the standpoint of potential 
acquisitions and looking at our leases also, not just 
acquisitions. And we agree fully. We are going to look both at 
all of our major leases to understand both the terms and the 
market conditions to prioritize, frankly, where to aggressively 
push and maybe lease extensions and other kinds of things. But 
in addition, we are going to look at the market for building 
purchase opportunities. We had a fairly ambitious building 
purchase program probably, I am losing track of time and I 
apologize, 10-plus years ago.
    Mr. Diaz-Balart. The 80s I think it was. We are getting 
old. I don't mean to scare you on that one, Mr. Costa, but it 
was a little longer than that.
    Mr. Costa. It was longer than that. My God. And that was 
very effective. Our issue of course will be finding money to do 
that also.
    Mr. Diaz-Balart. Sure.
    Mr. Costa. So we think it is worth looking at and possibly 
requesting funding to do that. But from our perspective, 
obviously, we are not going to be able to fund too many 
potential acquisitions, but we can at least look for targeted 
acquisitions to take advantage of the markets.
    Mr. Diaz-Balart. Good. I am glad to hear that, because it 
is obviously something that we have been talking about. And as 
much as it can be done, it makes a lot of sense to do it right 
now, obviously.
    Let me just talk very briefly, I mentioned a little while 
ago the FBI consolidation in Miami-Dade County. Can you 
elaborate a little bit on the project and what offices will be 
consolidated? What is the timeline? What are we looking at 
there?
    Mr. Costa. FBI was part of a request we made a while ago, 
frankly, for a DOJ lease consolidation. This Subcommittee 
approved that project. That was approved in 2006. Since that 
time, a couple of those agencies, I am sure this is not the 
technical term, bailed out of that consolidation, and we found 
other lease locations for them. We had been working with the 
FBI to look at a consolidation of their field office function 
in a lease. But for the same reasons, frankly, that we had 
talked about those small courthouses, when we looked at the 
costs of that, it made a lot more sense to propose the 
construction of a new building. We are using the same 
delineated area that we were using for the lease project to 
look for sites. And that is exactly what we have started right 
now. And we are in the process over the next basically two-and-
a-half months to choose a site for the new field office.
    Mr. Diaz-Balart. And that would be construction?
    Mr. Costa. It will be construction. And that is what we 
requested, authority to go ahead and build a new field office.
    Mr. Diaz-Balart. And you are looking at consolidating the 
12 locations into one?
    Mr. Costa. All 12 locations. The FBI mission has grown 
dramatically in south Florida. There are a number of task 
forces that have been established related to FBI functions that 
will be part of that consolidation.
    Mr. Diaz-Balart. Great.
    Mr. Costa. It is one of the most important and critical FBI 
needs in the country.
    Mr. Diaz-Balart. Great. I am glad to hear that. Again, you 
said you think in the next couple months you will have----
    Mr. Costa. Yes, we will keep you informed of how that is 
going.
    Mr. Diaz-Balart. Please. Great. Thank you.
    Madam Chairwoman, one more question if that is all right. 
Going to a totally different part of the country, the new land 
port entry in Maine. Now, I understand that it is about $743 
per square foot. Can you explain that apparent high cost 
associated with the project and the need for this new port of 
entry?
    Mr. Costa. Madawaska, Maine, is the third busiest port in 
New England. And the facilities just aren't adequate for the 
mission. The total cost of the project will be close to $70 
million, including design. The unit cost for land ports of 
entry are really, really difficult to both describe and 
calculate, because a lot of the costs of land ports of entry 
are really the infrastructure, the roadways. And in addition, 
there are many smaller buildings that make up ports. And 
frankly, you don't get the efficiencies that you do in a bigger 
building. So the unit costs are higher. There is no question 
about it.
    The cost of Madawaska is almost $500 a square foot. And we 
can go into more detail about why land ports of entry, at least 
on a unit cost basis, are more expensive. But it is really 
difficult to compare them to general purpose office space 
because it is just not general purpose office space. You just 
don't get the efficiencies. And the infrastructure surrounding 
land ports are very expensive.
    Mr. Diaz-Balart. If I may, Madam Chairman, just to 
finalize, again, thank you, sir, for again, for being here 
today. I do want to just thank you for pursuing the building 
purchase program. But I hope that you get encouragement from 
this Subcommittee that that is something that, again, I don't 
know what can be done that has better bang for the buck for the 
taxpayer than that. And particularly in the market like this, 
which hopefully will not last long, and it is an opportunity 
that I hope you do pursue as aggressively as possible. So 
anyways, thank you.
    Mr. Costa. We will, and we appreciate the support.
    Ms. Norton. Thank you, Mr. Diaz-Balart.
    We were briefed yesterday, and apparently the hearing has 
been held in the Senate already concerning a GSA report that 
showed that GSA was able to penetrate at a virtual 100 percent 
rate Federal office space with various bomb making materials, 
able to get through in various parts of the country. What is 
your response to these tests and the reason for the failures to 
detect the bomb making materials that we understand could 
amount to the makings for three sticks of dynamite?
    Mr. Costa. We were extremely concerned to hear about GAO's 
activities and report on those activities. We learned of them a 
couple of weeks ago. I met with the director of the Federal 
Protective Service last week to both express our concerns and 
understand better how the Federal Protective Service was going 
to respond to what the GAO found in their review. I do know the 
Federal Protective Service has issued guidance both to their 
folks and to customer agencies related to the Contract Guard 
Program.
    Ms. Norton. Since these tests were performed by GAO?
    Mr. Costa. My understanding is that the FPS did get briefed 
early on because of the severity, frankly, of what GAO had been 
able to do, and had provided FPS a little bit of information a 
number of weeks ago, and the FPS did respond to that with 
additional guidance. But we continue to be concerned. Clearly, 
we have worked extensively with the Federal Protective Service 
to protect and secure our facilities and the people in them. 
But they have a ton of work to do and we have a ton of work to 
do with them to ensure that this doesn't happen again and is 
corrected.
    Ms. Norton. I understand that, Mr. Costa. Of course I come 
to this with some experience because I am a Member of the 
Homeland Security Committee and a Member of the Aviation 
Subcommittee. So after 9/11, GAO did a number of these, various 
agencies did a number of these. And even with the very tight 
security at the airports, you could get through materials then 
with people who are highly trained.
    Let me tell you what my concern is. See, I am not going to 
sensationalize this issue. I am very concerned of course. This 
is the National Capital Region. We don't know where these 
were--we do, but the public doesn't, and it is better kept that 
way. Because there is not a lot of alternatives to people 
entering these buildings. We have got to do better. But this is 
not a hundred percent, and nothing is a hundred percent since 
9/11. I hope people understand there is some risk. My concern 
is that the risk analysis is not a part of the way Federal 
Protective Service operates, risk consequences. But I am 
equally concerned because we are all amateurs at security. We 
have never had to do the kind of security we now do until after 
9/11. Well, yes, some after Oklahoma City. But 9/11 was a 
wakeup call. And so people who were not security experts, 
basically very good police officers, are called upon to make 
decisions that they clearly haven't been trained to make. If 
anything, they overcompensate more often than not, without 
being able to show that the overcompensation results in better 
security.
    We are going to have a hearing, but we are not going to 
have a hearing just on the ability to get explosives in. I have 
been there, done that for 7 or 8 years in Homeland Security and 
GAO, Aviation. I am far more concerned, Mr. Costa, about how 
each building does security and the huge disparities without 
regard to the security risks in a particular facility.
    For example, today in the Department of Transportation my 
staff on the Congress, your staff, you could not get into the 
building unless somebody comes down from the Department of 
Transportation on their staff to escort you into the building. 
We learned that last year. We were astonished, since we know 
for sure of buildings that are higher security where this is 
not the case.
    Could you explain how such disparities in security, without 
regard to risk and consequences, could result across the 
various agencies of the Federal Government? Who is responsible 
for deciding what security is appropriate for each of your 
facilities?
    Mr. Costa. Well, there is both bad news and good news. The 
bad news, and I agree with you fully that the system isn't 
working--the bad news is that right now when you look at 
Federal facilities across the board, not just GSA buildings, 
but building security committees that are made up of customer 
agencies, the occupants of buildings, and the Federal 
Protective Service and GSA, if it is a GSA building----
    Ms. Norton. Excuse me, who are these people that you just 
named?
    Mr. Costa. It is a committee called the Building Security 
Committee.
    Ms. Norton. Who would be on such a committee?
    Mr. Costa. Customer agencies, the tenants of the building, 
with the----
    Ms. Norton. What is their role?
    Mr. Costa. Well, their role is to actually take in 
information from the Federal Protective Service, security 
assessments, and ultimately make decisions, with Federal 
Protective Service input, as to ultimately both the physical 
and operational security measures that will be implemented in 
buildings. That system----
    Ms. Norton. I have to understand this. So, you know, I am a 
clerk at HHS. What is my role with respect to the Federal 
Protective Service? I am on this committee. I am very concerned 
about security after 9/11, I am very concerned.
    Mr. Costa. What is supposed to happen is the agency, the 
designated agency official, every building has a designated 
agency official.
    Ms. Norton. Is that a person with any security expertise?
    Mr. Costa. No, it is a relatively high level management 
person with responsibility for the building and the occupants 
of the building, but not necessarily security expertise. What 
he or she is supposed to do is help guide the formation of a 
building security committee, which would include one or two or 
three tenant representatives, the Federal Protective Service, 
and a GSA building manager, because of course GSA has----
    Ms. Norton. You have got to help me, Mr. Costa. I can 
understand how there should be--it is like a tenant advisory 
committee. I don't understand the role of nonexperts in 
deciding--sitting at the table. Do they have a vote?
    Mr. Costa. I don't know how they operate on a day-to-day 
basis. And frankly----
    Ms. Norton. They are your buildings, Mr. Costa. I am 
talking about your buildings. I am trying to find out who is 
responsible for establishing, for example, in the Department of 
Transportation----
    Mr. Costa. The Federal Protective Service----
    Ms. Norton. --somebody has to come down and get you. And 
let me go further. If you are a taxpayer visiting the District 
of Columbia and you have a kid who needs to go to the, excuse 
me, lavatory, says mommy, I have got to go, cannot get into 
that building he paid for. Who is responsible, Mr. Costa?
    Mr. Costa. Tenant agencies ultimately, with Federal 
Protective Service input, describe the countermeasures, both 
operating and physical, that are incorporated into the 
building.
    Ms. Norton. So who is the decision-maker or, as President 
Bush would say, the decider?
    Mr. Costa. The head of the BSC.
    Ms. Norton. What?
    Mr. Costa. The head of the building security committee. But 
there is good news. I was hoping to get to the good news.
    Ms. Norton. Please get to the good news.
    Mr. Costa. The good news is the Interagency Security 
Committee has developed draft revisions to how those security 
committees will work. I have been very concerned about the fact 
that there are people without technical expertise----
    Ms. Norton. Here is another committee. Tell me about that 
committee.
    Mr. Costa. That committee is a committee that is run by the 
Department of Homeland Security, and it is supposed to 
rationalize security issues across all Federal agencies.
    Ms. Norton. What is the point of having--look, I am 
accustomed to people who have expertise not knowing what they 
are doing. Namely, I know there is nobody in the security 
business in these agencies that strikes me as yet of the 
expertise I have seen on CODELs where I visited. Instead, the 
amateurish quality of it is overwhelming to see.
    So you got to make me understand. I can understand that 
tenants would complain about this, you know, I can't get in or 
these people can't get in. Make me understand why nonexperts 
should be sitting at the table with FPS, supposedly expert, in 
deciding what the security arrangements in a building will be.
    Mr. Costa. FPS brings the technical expertise to the 
committee. They are responsible for doing building security 
assessments on a periodic basis.
    Ms. Norton. And they alone have the technical expertise, 
don't they?
    Mr. Costa. The Federal Protective Service.
    Ms. Norton. What is the role of somebody who doesn't have 
any expertise when it comes to security except to do what I do, 
complain about too much security or I have seen people get in 
who shouldn't? What is the role? I can understand, I like the 
fact that we hear from Federal employees. What I am trying to 
understand, how come they are sitting at the table in a 
decision-making capacity with the Federal police, who alone 
have the expertise at that table?
    Mr. Costa. I think the basic issue is that the expertise 
comes in from the Federal Protective Service, but the ultimate 
bill for that security is paid by those customer agencies.
    Ms. Norton. Excuse me, it is certainly not being paid by 
the Federal employees who have no expertise. Are you saying 
because they pay to lease buildings they get to decide security 
in Federal buildings rather than GSA and the FPS?
    Mr. Costa. Ultimately, the Federal Protective Service 
provides technical expertise. The designated agency official is 
ultimately responsible for making decisions about things like 
post orders with information and expertise provided by the 
Federal Protective Service, because ultimately those agencies 
are paying for those security measures.
    Ms. Norton. Now I understand how the bombs got in. It seems 
to me people are all over the map. That is to say you can have 
people like me who have seen the overregulation, the "shut the 
place down" kind of approach of your security officials after 
9/11. And there were a lot of very nervous people. Who is to 
know who is going to be on one of these committees? What 
bothers me most of all is that they would have anything but the 
kind of role that it seems to me they should have. Tell me what 
your concerns are. Tell me what those concerns are based on. We 
will take those into account when we decide what security is 
appropriate for this building. Is that not the way to proceed?
    Mr. Costa. Just to be clear, from GSA's perspective we have 
asked the Federal Protective Service to take on that leadership 
role. We think it is the appropriate place.
    Ms. Norton. Why are they not taking on that role now?
    Mr. Costa. I think with the revisions in the drafting in 
the ISC guidelines----
    Ms. Norton. When will those guidelines be done?
    Mr. Costa. This summer.
    Ms. Norton. Can you give us any assurance that those 
guidelines will in fact not leave customer agency personnel, 
expert in agency matters, as decision makers for the security 
of Federal assets?
    Mr. Costa. I can assure you that as a member of the 
Interagency Security Committee, first of all, we will bring 
those issues to light. I can also provide specific information 
on how the DHS and the schedule for the ISC promulgating the 
draft guidelines, and we would be happy to both attend, 
facilitate, and help get this to, frankly----
    Ms. Norton. All these agencies before us, not just you. We 
are going to expose what these agencies are doing. Essentially, 
Mr. Costa, and I say this for the record, just like GSA has 
given over much of its functions to the agency, as Ms. Edwards 
brought out when it decided that HHS should be able to live 
wherever it wants to be, whatever the expense, essentially you 
have given over security to these people who, as you say, pay 
the bill, which they are required to do as a matter of law, as 
if they had any alternative unless they happened to be the 
USDA. The notion, particularly after this hearing, that we are 
leaving, you know, civil servants at the table as decision 
makers for security in Federal buildings is shocking and 
totally unacceptable. Ultimately, their advice, just like the 
advice should have been received for the HHS building, is 
important. You can't know whether the security is too much, too 
little unless you talk to the people who live there. But they 
will have to be overridden sometimes. And if they are at the 
table, that is going to be very hard to do.
    Mr. Costa. Madam Chair, I am not doing a very good job of 
explaining what is essentially not within GSA's direct purview. 
So I think it would be most appropriate----
    Ms. Norton. It isn't in the--these are GSA buildings but it 
is not in GSA's purview?
    Mr. Costa. Not the policy and guidelines.
    Ms. Norton. Whose purview it is that?
    Mr. Costa. Federal Protective Service. So it would be 
better----
    Ms. Norton. You know, just a moment, Federal Protective 
Service was a GSA agency.
    Mr. Costa. Yes.
    Ms. Norton. Now, there is some shared responsibilities. All 
right, it is structurally in Homeland Security. So here we have 
the people that were over Federal Protective Service, who had 
to fund them, add to their funding every year because it wasn't 
enough funds, from the agency saying, well, you know, we, the 
parent agency, at least until last year, and still they shared 
a responsibility, it is not us, it is these people beneath us.
    Mr. Costa. I am sorry if it sounds like I am shirking----
    Ms. Norton. It sure does.
    Mr. Costa. --our responsibility, but that is not what I am 
saying. I am just saying it is unfair for me to talk in detail 
and represent----
    Ms. Norton. I am just trying to find out who the decider 
is. And you say Federal Protective Service, that reports 
presumably to you on matters of security.
    Mr. Costa. Federal Protective Service does not report to 
GSA as it relates to security. GSA participates with FPS to 
conclude on requirements when it comes to the design of 
buildings and the day-to-day operations. But FPS doesn't report 
to us.
    Ms. Norton. But over the design and day-to-day operations 
of buildings it certainly does. You just said so.
    Mr. Costa. They do not report to us.
    Ms. Norton. The day-to-day operations of buildings.
    Mr. Costa. For instance, the Contract Guard Program, 
contract guards are in our buildings, but we are not 
responsible for those contracts or those programs.
    Ms. Norton. Who are now?
    Mr. Costa. Federal Protective Service.
    Ms. Norton. Does that mean the Department of Homeland 
Security?
    Mr. Costa. Yes, I am sorry, DHS.
    Ms. Norton. Although it was in this Committee that we 
reformed the FPS wholesalely with respect to contracts, when 
felons received contracts, straightened out I must say entirely 
satisfactorily. Although they were located in Homeland 
Security, when contracts weren't being paid, reformed it, just 
through a series of hearings. This is the Committee which has 
jurisdiction over you. What were we doing in that if you don't 
have anything to do with the Federal Protective Service?
    Mr. Costa. We have a role to work with them to protect and 
secure our facilities. But ultimately, security has been moved 
to the Department of Homeland Security.
    Ms. Norton. We need to see a draft of this guidance as soon 
as possible. It is very disturbing to think that there would be 
people at the table who had no expertise deciding something. 
And it almost entirely explains why the differences are there. 
You know, those same differences, Mr. Costa, apply when you say 
you know what, you can live in Prince Georges County or you can 
live in Montgomery County. You choose. Handing off that 
responsibility, not claiming responsibility Congress expects 
you to have, and I would certainly hope the Homeland Security 
agency would expect you to have, is very, very disturbing to 
us. We understand some of this may come from the bifurcation 
that we weren't able to do a great deal about. But the fact is 
that these committees have been in operation long before that 
bifurcation. Isn't that true? That is to say, you were 
operating with these same kinds of customer committees for a 
long time now, have you not?
    Mr. Costa. We have been. And we have been talking with the 
Interagency Security Committee about clarifications of roles 
and responsibilities and ultimate responsibilities for risk 
management decisions because we share some of the concerns that 
you have raised.
    Ms. Norton. You know, Mr. Costa, we are going to 
reauthorize your statute, which hasn't been basically touched 
since President Truman first created the Public Buildings 
Service. Sometimes when I listen to testimony from GSA I wonder 
whether or not more law matters. You have very significant 
authority in most of the areas that concern us. We are just 
going to have to see more in the way of GSA asserting its 
leadership. You read that statute, and it is pretty clear you 
are given a great leadership role. Congress understood in 1959, 
I think it was, these people are not going to be able to manage 
buildings across the spectrum of the Federal Government if you 
don't give them broad authority. The statute is nicely worded. 
We are going to have to fill in the blanks, which we didn't 
believe or Congress didn't believe at the time were there.
    But for example, there are extra security escort costs 
associated with I think it is the U.S. Secret Service. Oh, 
excuse me, it is OMB. Oh, my, where guards have to take people 
through the building. See, you can get anything you want unless 
you have to pay for it yourself like the American people. What 
are the security costs associated with the fact that OMB, just 
because it is the OMB, has been able to get special treatment 
so that guards take people through the building? Have to bring 
down a whole trained guard to take people, apparently 
regardless of what their credentials show?
    Mr. Costa. I think the escorting services as it relates to 
this particular project aren't necessarily by a guard. They are 
just people who have clearances. I mean, that is the biggest 
difficulty with projects in buildings that house a high 
security mission.
    Ms. Norton. Don't all the people in OMB have security 
clearance?
    Mr. Costa. Well, they do, but our intention wouldn't be to 
have folks who are doing OMB work also escort construction 
workers. We have some added cost to make sure----
    Ms. Norton. No, this goes to whoever pays for guards, as we 
understand.
    Mr. Costa. In this case, yes.
    Ms. Norton. What is the purpose of the guards if a Federal 
employee, for example, comes, having to get escorted by a 
guard?
    Mr. Costa. The Federal employees would not be.
    Ms. Norton. Who would be? Who would be then?
    Mr. Costa. Construction workers, contractors who hire folks 
who do work for the General Services Administration.
    Ms. Norton. No matter how often they come into the 
building? How about making sure that all of them have some kind 
of clearance?
    Mr. Costa. That is really--that is what we have to do. I 
mean that is one of the issues we have had----
    Ms. Norton. When will that be done? I mean we can't offload 
this. These guys show up every day and they still have to be 
escorted. Can't you get clearance for these people for the 
limited kind of work they do? And if so, when is the earliest 
you can do that?
    Mr. Costa. We do that now for a lot of our projects. We get 
temporary clearances.
    Ms. Norton. What about for OMB?
    Mr. Costa. I would have to get you the details as to what 
those----
    Ms. Norton. 30 days, sir. 30 days, please. Charged directly 
to you, security escort costs. Amended prospectus. You know, if 
OMB wants this, pay for it themselves. They have got the money. 
You don't.
    Mr. Costa. Part of the issue with this project is that 
when----
    Ms. Norton. Not originally contemplated for the new 
Executive Office Building.
    Mr. Costa. The issue is that we thought the renovation 
project was much more limited, and when we started doing the 
renovation work realized it was much more extensive. So 
frankly, part of this is that we are actually asking them to 
move so we can do that work that had not been contemplated.
    Ms. Norton. This was a request of OMB, though.
    Mr. Costa. On security.
    Ms. Norton. Yeah. Couldn't you have sought security 
clearance for these workers, even belatedly? Why didn't anybody 
think to save the government money? Because it is not your 
money, that is why. Why not say, okay, we'll do this until we 
see if these people can get security clearance?
    Mr. Costa. Madam Chair, we have a continuing issue, really, 
finding people to do work with clearances. It is a huge issue 
nationally.
    Ms. Norton. What kind of clearance do you need?
    Mr. Costa. To do work in Federal facilities you need 
extensive clearances, the same kind of clearances that Federal 
workers working in buildings require.
    Ms. Norton. That is difficult to get for legal workers in 
this country? You know, Joe Lunch Box?
    Mr. Costa. Yes, it is. It is difficult and takes a long 
time and so often we are in a bind because work needs to be 
done, and so part of the escorting that we sometimes pay for is 
associated with the fact that we can't get clearances for 
workers.
    Ms. Norton. I really have only one more question. The 
Ranking Member asked about what seemed to be a very high cost 
for construction. Now, this is one that I think will surprise 
him as much as it did us. Apparently, for storage space, the 
Secret Service is costing us a thousand dollars per square 
foot. What are we trying to protect? Why in the world? $10 
million for 10,000 square feet. Where? Why?
    Mr. Costa. You are talking about the Secret Service 
facility on the White House complex. When EOB wasrenovated----
    Ms. Norton. Where is it located precisely?
    Mr. Costa. Right now that function is spread across a 
number of buildings on the complex, and that is actually the 
problem.
    Ms. Norton. This is a storage room.
    Mr. Costa. No, no, it is not. I am sorry if the information 
we provided was not clear. It is office space, meeting rooms, 
locker rooms, IT security requirements for the Secret Service 
on the White House complex. It is basically where they will be 
stationed.
    Ms. Norton. So it is within the walls of the White House 
grounds?
    Mr. Costa. Yes.
    Ms. Norton. Within the gates of the White House?
    Mr. Costa. Yes, it is. Our proposal is----
    Ms. Norton. What costs a thousand dollars? You can't even 
get in those gates. First you can't get in the gates. Okay. You 
can't get in in the first place. Now, once you get in, you have 
got a more secure space than the White House itself. Explain to 
us a thousand dollars per square foot. To make what the Secret 
Service, what looks to be the most secure space within the 
White House complex. And that is not even for major meetings. 
So make us understand that.
    Mr. Costa. This cost issue is not really related to 
security and the project. This cost is really related to our 
proposal to build a modular structure in the courtyard of the 
Eisenhower Executive Office Building. We did not contemplate 
putting a modular structure in the courtyard. We built 
extensive structures within the courtyard, below the surface of 
the courtyard.
    Ms. Norton. It is below the surface?
    Mr. Costa. No. We did a lot of renovation work, added 
building systems underneath the surface of the courtyard. Part 
of the cost is to actually go back, now put a modular structure 
in the courtyard and build the piering and everything else.
    Ms. Norton. I always thought modular structures were less 
costly. Forgive me.
    Mr. Costa. Well, if you saw the alternative we looked at, 
you would say this was relatively inexpensive because some of 
the alternatives were just----
    Ms. Norton. This was competitively bid?
    Mr. Costa. No, no, we haven't gone out to bid with this at 
all. We are requesting authorization funding. Some of the 
alternatives that we looked at to house the Secret Service on 
the White House complex----
    Ms. Norton. That were not modular, you mean?
    Mr. Costa. Were not modular were extremely expensive.
    Ms. Norton. I can't imagine what those must have been.
    Mr. Costa. They were extremely expensive.
    Ms. Norton. Now that we are up to $1,000 per square foot, I 
won't ask you what the others would have been. In other words, 
you are telling me, be happy we got it down to a thousand 
dollars a square foot.
    Mr. Costa. I am not sure I am going to shoot for happiness, 
but this is less costly. The construction itself, because it is 
in a courtyard, will require cranes, so the complexity of 
material going over the wing of EOB will add costs. Frankly, we 
have to do work on off hours also because of the operation of 
the White House complex. So there are many complexities related 
to this construction, not only how we are going to do the 
construction, but where we are going to do it that drives up 
the cost.
    Ms. Norton. I sure hope that when you get to the point, you 
know, people are dying for work, Mr. Costa, in relationship to 
our earlier discussion of buyer's market, I certainly hope when 
you bid this that you understand who is in a position to 
negotiate the best price. You know, when they see deep pockets 
and they wonder whether they are dealing with people who 
understand what everybody else in the market understands, I 
don't have any assurance that, about this $1,000 per square 
foot, how to judge it, except that I certainly hope you try to 
get it down after there is the appropriate competition.
    Mr. Costa. We will.
    Ms. Norton. Appreciate it. Now, before I--I have one more 
question and I am going to ask the Ranking Member. I just 
thought both of us would like to hear an update on the recovery 
projects, where we are, whether the obligation will be in time 
for that due date. Was it 2010? They all must be obligated. Not 
built, but obligated? How will you know, let us say, today, for 
that matter, that you are on pace to obligate everything and 
won't have to give back to the Treasury, God forbid, any of the 
funds?
    Mr. Costa. We are doing extremely well with our 
obligations.
    Ms. Norton. How do you know that? I would be pleased to see 
the amount. And I indicated, but I didn't know how to judge 
that against, I don't know, 5.5 billion, and what it would 
mean. For example, do you know how much you have to obligate 
every 3 months, every quarter?
    Mr. Costa. Yes, we have month-by-month obligation plans for 
the next 18 months. Our basic plan is to obligate a billion 
dollars by the end of July, a second billion dollars by the end 
of December, 2 million additional dollars by the end of March, 
2010, and one last billion dollars through the end of fiscal 
year 2010.
    Ms. Norton. And you are on track to meet that schedule?
    Mr. Costa. We are on track. We have obligated $320 million 
worth of projects. We are on track to obligate at least a 
billion dollars by the end of July. We actually think we will 
be obligating more than a billion dollars. That, in addition, 
some of the bids are coming in lower, so we are actually doing 
more work, more work on the ground than we had actually 
planned. And we are being aggressive as I have ever seen us in 
25 years in GSA.
    Ms. Norton. Excellent. And congratulations, particularly if 
you are able to get people to understand who you are and they 
are coming in below what you thought the job may cost.
    Could you please give me the status of the Southeast 
Federal Center and the St. Elizabeth's project? Let's start 
with Southeast Federal Center. I was very pleased to go over 
and see that they are beginning to do the park. I am not sure 
who is responsible, I think that may be the District's 
responsibility.
    Mr. Costa. It is a joint responsibility, but we helped 
negotiate that with Forest City and the District a number of 
years ago.
    Ms. Norton. It was so important to see that there was some 
work proceeding. Almost all the work proceeding in this town is 
Federal work. But we do understand that for Forest City, that 
there are, in fact, various entities that want to move into 
Forest City. They had had difficulty, of course, with the 
housing. They were able to get some help with that and that may 
be proceeding. But I would like to know where they are on 
housing, where they are on entities that have indicated, even 
in this economy, that they would like to be located in that 
riverfront project.
    Mr. Costa. I think I will have to follow up with the 
detailed briefing on where that is. The information I am 
getting is that they were slowed by the market, but that is 
what I assumed, frankly. They were slowed by the market.
    Ms. Norton. Well, of course. We understand that, unlike 
some projects, there are folks looking to locate there. It is 
very difficult because even if there are the banks have to be 
willing to move. But I would like to have, from your 
perspective, where we are.
    Look, your staff found that the two courthouses were not 
funded. I asked them to go look because the appropriation came 
out last night. So I also ask that they look at the budget 
figure for Federal Protective Service, for USDA and fiscal year 
2010, now that it is a matter of public record.
    Mr. Costa. I do have the information for USDA.
    Ms. Norton. And what does that say?
    Mr. Costa. The request was close to $238 million. And the 
House appropriations bill, the mark was 224, which is 14, close 
to $14 million less. And I am getting information that the 
Senate bill is far below that, less than $170 million. So it is 
not good news.
    Ms. Norton. Well, first of all, I am going to have to 
personally thank Mr. Serrano. I mean, you asked for 238. They 
gave you 224?
    Mr. Costa. Yes.
    Ms. Norton. And that 238 represented what, please?
    Mr. Costa. Represented the full rent bill, national rent 
bill for USDA.
    Ms. Norton. Including the delinquent USDA?
    Mr. Costa. Yes.
    Ms. Norton. How much of that is the delinquent USDA 
facility? Is it 20 million you thought?
    Mr. Costa. No, I think the gap----
    Ms. Norton. Because we thought it was 40 million that they 
were----
    Mr. Costa. The gap. And that is, that was the gap in fiscal 
year 2009.
    Ms. Norton. Oh, so all they are doing is funding what they 
usually fund?
    Mr. Costa. Yes.
    Ms. Norton. Plus the gap?
    Mr. Costa. No, it looks like it is based, the gap, the $40 
million gap is not----
    Ms. Norton. So no part of the $40 million gap----
    Mr. Costa. It does not look like that is the case.
    Ms. Norton. Very disturbing. We are going to have a go-
round at it. And indeed, that means that you are funded below 
what was necessary just to keep even; 224?
    Mr. Costa. Yes.
    Ms. Norton. Had the Subcommittee agreed to try to fund, so 
that would have been what figure? This 238, did that 
represent----
    Mr. Costa. That did not include the full gap.
    Ms. Norton. Well, that is what you--well, they are not 
going to give you any more than you asked for, Mr. Costa.
    Mr. Costa. I understand what you are saying.
    Ms. Norton. Did you ask for the money for the gap as well?
    Mr. Costa. The President's request was 238, which did not 
include the gap.
    Ms. Norton. And yet how could they possibly have given it 
to you if you don't ask for it?
    Federal Building Fund, do you think that anybody at OMB 
knows anything about that, the Federal Building Fund? I don't. 
Not unless GSA takes it on itself to apprise them of what in 
the world they are doing to you and to your very valuable 
inventory.
    Mr. Costa. We are going to have those discussions with the 
Office of Management and Budget.
    Ms. Norton. Beginning tomorrow, right?
    Mr. Costa. Yep.
    Ms. Norton. Status, please, of St. Elizabeth's? Excuse me. 
Status, please, of the new DHS headquarters?
    Mr. Costa. We just awarded a demolition contract for the 
warehouse site which we are very excited about. It went to a 
small business in the Washington Metropolitan Area.
    Ms. Norton. I appreciate that you have set aside 
particularly that contract for small businesses and then had 
them compete for this small business contract in keeping with 
Federal regulations, so that is good.
    Mr. Costa. We are trying our best to maximize small 
business. But thank you. The ongoing issue with Shepherd 
Parkway, which you have been very supportive of, is actually 
going very well. The draft, what is called the 4-F 
determination, has been issued; and we have been assured by 
Federal Highways and working with them closely that that will 
be closed by the end of the month.
    Ms. Norton. What will be closed?
    Mr. Costa. The 4-F definition that will allow us to proceed 
with Shepherd Parkway.
    Ms. Norton. That is very important for us.
    Mr. Costa. And you have been terrific helping us out with 
that.
    Ms. Norton. What about Bolling Interchange? Malcolm X?
    Mr. Costa. We have been able to negotiate with the District 
and conclude on an agreement to start work. They provided us a 
right of entry last week.
    Ms. Norton. Who?
    Mr. Costa. The District government. And so we are able to 
start work.
    Ms. Norton. On what?
    Mr. Costa. On surveys and site work on that.
    Ms. Norton. On Malcolm X exchange?
    Mr. Costa. Yes.
    Ms. Norton. Now, we have a new conglomerate of Federal 
agencies that now will be at Bolling. They are getting 
additional employees, DHS. And Martin Luther King Avenue is 
prominently implicated here. Is the work proceeding so that the 
Martin Luther King Avenue part of this project will also be 
funded through the Federal Transportation Agency, or whoever 
you are getting to do Shepherds Parkway and the rest?
    Mr. Costa. Well, from our perspective, it needs to. What we 
are doing right now is working, continuing our environmental 
impact work. The District, of course, is looking at the East 
Campus. Both those planning activities include transportation 
impact analyses and----
    Ms. Norton. Now, the District hopes to get what would 
amount to a Federal facility, so what the District, which 
hasn't moved on anything, frankly, is hoping that the Federal 
facility that would face Martin Luther King Avenue will give it 
a jump start. So I don't see how this makes this the 
District's. I know what they are going to say. They are going 
to say both sides are Federal projects. So I need to know about 
Martin Luther King Avenue, since one thing we assured the 
community is that that fairly narrow main strip would be taken 
care of by the Federal agency, first by having Shepherds 
Parkway, and then by making sure that Martin Luther King Avenue 
was equipped to accept the Federal traffic that it inevitably 
will have to accept.
    Mr. Costa. Well, it looks like, based on the information I 
have in front of me, both an index card that was just placed in 
front of my nose and my notebook, we are actually looking at 
acquisition to allow widening of MLK as soon as a year from 
today, July of 2010, and the actual RUG proceeding the 
following year. So things are moving along faster than----
    Ms. Norton. Would Federal Transportation pay for that or 
GSA have to pay for that?
    Mr. Costa. A blend. We do have some responsibility, no 
question about it.
    Ms. Norton. Excellent. If--we have had in the office 
Federal Transportation people, they have been very cooperative 
as far as they can go. Your people have been very good. We have 
also, of course, staff has spoken with the GSA. But the one 
thing that could make this project collapse at the get-go would 
be any difficulty people had in getting there. We haven't even 
gotten to the point where the DHS people are going to 
understand that they are the first to go across the Anacostia. 
The last thing we need is them to throw in our transportation 
planning as the reason for "I told you so." I used to be able 
to get work, you know, when it was ABC, at 60 different 
locations, wherever they are now. So we need the 
transportation, for us it is first on the radar because we 
trust your work, your experience with respect to the building 
and the construction that will be going on.
    I have to ask about--our office continues to get questions 
about jobs, and we did put something in our newsletter to let 
them know, oh, you know, the contractor chooses and so forth. 
But we also put in, based on information from your office, that 
the jobs will be advertised on-line. That is going to be very 
important. Is that true?
    Mr. Costa. We are asking contractors to advertise jobs on-
line, yes.
    Ms. Norton. Okay. And is that line going to come through 
the GSA or through the--we need to be able to respond to people 
from the region. When they hear of contracts, even small ones, 
they want to know how do you get the jobs? And especially those 
are the ones they are most likely to be interested in because 
they are small business contracts. How do they find out about 
the jobs, the ones you just listed?
    Mr. Costa. We will give your office the specific 
information.
    Ms. Norton. I would like to have that one within 7 days, 
because we keep getting these inquiries.
    Mr. Costa. We will do that.
    Ms. Norton. I just want to say that we have been very 
pleased with the way in which GSA has proceeded with the DHS 
headquarters, with involving the community, with involving 
small businesses, with proceeding on time. Will we break ground 
this year?
    Mr. Costa. Yes, we will. We will break ground in September. 
We are looking at dates and we are working with your office to 
figure out when everyone can be together for that great event.
    Ms. Norton. What a positive note to end this hearing on. 
Thank you very much, Mr. Costa. And we will expect, as we 
always do, to receive the responses to our questions. Please be 
in touch with staff if we can be useful to you so that we don't 
have to rake you across the coals when we didn't know what we 
might do before the Appropriation Committee and the like. 
People who go to the appropriators do get responses.
    Mr. Costa. Thank you for the continued support.
    Ms. Norton. Thank you, Mr. Costa. The hearing is adjourned.
    [Whereupon, at 6:10 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T0973.004
    
    [GRAPHIC] [TIFF OMITTED] T0973.005
    
    [GRAPHIC] [TIFF OMITTED] T0973.006
    
    [GRAPHIC] [TIFF OMITTED] T0973.007
    
    [GRAPHIC] [TIFF OMITTED] T0973.008
    
    [GRAPHIC] [TIFF OMITTED] T0973.009
    
    [GRAPHIC] [TIFF OMITTED] T0973.010
    
    [GRAPHIC] [TIFF OMITTED] T0973.011
    
    [GRAPHIC] [TIFF OMITTED] T0973.012
    
    [GRAPHIC] [TIFF OMITTED] T0973.013
    
    [GRAPHIC] [TIFF OMITTED] T0973.014
    
    [GRAPHIC] [TIFF OMITTED] T0973.015
    
    [GRAPHIC] [TIFF OMITTED] T0973.016
    
    [GRAPHIC] [TIFF OMITTED] T0973.017
    
    [GRAPHIC] [TIFF OMITTED] T0973.018
    
    [GRAPHIC] [TIFF OMITTED] T0973.019
    
    [GRAPHIC] [TIFF OMITTED] T0973.020
    
    [GRAPHIC] [TIFF OMITTED] T0973.021
    
    [GRAPHIC] [TIFF OMITTED] T0973.022
    
    [GRAPHIC] [TIFF OMITTED] T0973.023
    
    [GRAPHIC] [TIFF OMITTED] T0973.024
    
    [GRAPHIC] [TIFF OMITTED] T0973.034
    
    [GRAPHIC] [TIFF OMITTED] T0973.035
    
    [GRAPHIC] [TIFF OMITTED] T0973.036
    
    [GRAPHIC] [TIFF OMITTED] T0973.037
    
    [GRAPHIC] [TIFF OMITTED] T0973.038
    
    [GRAPHIC] [TIFF OMITTED] T0973.039
    
    [GRAPHIC] [TIFF OMITTED] T0973.040
    
    [GRAPHIC] [TIFF OMITTED] T0973.041
    
    [GRAPHIC] [TIFF OMITTED] T0973.042
    
    [GRAPHIC] [TIFF OMITTED] T0973.043
    
    [GRAPHIC] [TIFF OMITTED] T0973.044
    
    [GRAPHIC] [TIFF OMITTED] T0973.045
    
    [GRAPHIC] [TIFF OMITTED] T0973.046
    
    [GRAPHIC] [TIFF OMITTED] T0973.047
    
    [GRAPHIC] [TIFF OMITTED] T0973.048
    
    [GRAPHIC] [TIFF OMITTED] T0973.049
    
    [GRAPHIC] [TIFF OMITTED] T0973.050
    
    [GRAPHIC] [TIFF OMITTED] T0973.051
    
    [GRAPHIC] [TIFF OMITTED] T0973.052
    
    [GRAPHIC] [TIFF OMITTED] T0973.053
    
    [GRAPHIC] [TIFF OMITTED] T0973.054
    
    [GRAPHIC] [TIFF OMITTED] T0973.055
    
    [GRAPHIC] [TIFF OMITTED] T0973.056
    
    [GRAPHIC] [TIFF OMITTED] T0973.057
    
    [GRAPHIC] [TIFF OMITTED] T0973.060
    
    [GRAPHIC] [TIFF OMITTED] T0973.061
    
    [GRAPHIC] [TIFF OMITTED] T0973.062
    
    [GRAPHIC] [TIFF OMITTED] T0973.063
    
    [GRAPHIC] [TIFF OMITTED] T0973.064
    
    [GRAPHIC] [TIFF OMITTED] T0973.065
    
    [GRAPHIC] [TIFF OMITTED] T0973.066
    
    [GRAPHIC] [TIFF OMITTED] T0973.067
    
    [GRAPHIC] [TIFF OMITTED] T0973.068
    
    [GRAPHIC] [TIFF OMITTED] T0973.069
    
    [GRAPHIC] [TIFF OMITTED] T0973.070
    
    [GRAPHIC] [TIFF OMITTED] T0973.071
    
    [GRAPHIC] [TIFF OMITTED] T0973.072
    
    [GRAPHIC] [TIFF OMITTED] T0973.073
    
    [GRAPHIC] [TIFF OMITTED] T0973.074
    
    [GRAPHIC] [TIFF OMITTED] T0973.075
    
    [GRAPHIC] [TIFF OMITTED] T0973.076
    
    [GRAPHIC] [TIFF OMITTED] T0973.077
    
    [GRAPHIC] [TIFF OMITTED] T0973.078
    
    [GRAPHIC] [TIFF OMITTED] T0973.079
    
    [GRAPHIC] [TIFF OMITTED] T0973.080
    
    [GRAPHIC] [TIFF OMITTED] T0973.081
    
    [GRAPHIC] [TIFF OMITTED] T0973.082
    
    [GRAPHIC] [TIFF OMITTED] T0973.083
    
    [GRAPHIC] [TIFF OMITTED] T0973.084
    
    [GRAPHIC] [TIFF OMITTED] T0973.085
    
    [GRAPHIC] [TIFF OMITTED] T0973.086
    
    [GRAPHIC] [TIFF OMITTED] T0973.087
    
    [GRAPHIC] [TIFF OMITTED] T0973.088
    
    [GRAPHIC] [TIFF OMITTED] T0973.089
    
    [GRAPHIC] [TIFF OMITTED] T0973.090
    
    [GRAPHIC] [TIFF OMITTED] T0973.091
    
    [GRAPHIC] [TIFF OMITTED] T0973.092
    
    [GRAPHIC] [TIFF OMITTED] T0973.093
    
    [GRAPHIC] [TIFF OMITTED] T0973.094
    
    [GRAPHIC] [TIFF OMITTED] T0973.095
    
    [GRAPHIC] [TIFF OMITTED] T0973.096
    
    [GRAPHIC] [TIFF OMITTED] T0973.097
    
    [GRAPHIC] [TIFF OMITTED] T0973.098
    
    [GRAPHIC] [TIFF OMITTED] T0973.099
    
                                    

</pre></body></html>
